<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]




 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                        THURSDAY, APRIL 11, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. John Hoeven (chairman) presiding.
    Present: Senators Hoeven, Collins, Moran, Hyde-Smith, 
Merkley, Tester, Udall, and Baldwin.

                     U.S. DEPARTMENT OF AGRICULTURE

STATEMENT OF THE HONORABLE SONNY PERDUE, SECRETARY
ACCOMPANIED BY:
        DR. ROBERT JOHANSSON, CHIEF ECONOMIST
        MRS. ERICA NAVARRO, BUDGET OFFICER

                OPENING STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. We'll call the hearing to order. I'd like 
to thank our Agriculture Secretary for being here this morning, 
Secretary Perdue. We appreciate very much you being here before 
the Committee.
    Also, Dr. Robert Johansson, thank you as well. We 
appreciate you being here to testify.
    And, Ms. Erica Navarro, thank you very much for you joining 
us as well.
    Today the purpose of today's hearing is to discuss the 
Department of Agriculture's fiscal year 2020 budget request. 
And I hope that today's discussion will clarify the 
administration's support for rural America and production 
agriculture. The proposed reductions would directly impact 
small rural communities many of us call home. Agriculture 
production is the cornerstone of our local rural economies, and 
weakening the farm safety net leaves farmers and ranchers 
vulnerable to low commodity prices and unforeseen weather 
conditions, and, of course, right now they're facing both.
    Farmers and ranchers in our State and across the ag Belt 
rely on the Department's tools and resources to stay in 
business during these tumultuous times in farm country. Cuts to 
ag research hurt our country's ability to compete 
internationally and meet the demands of growing global 
population. Ag remains one of America's net export industries 
due to open trade, and we must continue to explore foreign 
market access for our producers, and expand trade.
    While I support many proposals included in the President's 
budget, such as increased funding for our military and defense, 
the burden of balancing the budget cannot be placed on the 
backs of farmers, rural communities, and food aid recipients.
    In our fiscal year 2019 ag appropriations bill, this 
subcommittee made great strides towards modernizing 
infrastructure in rural America, increasing funding for ag 
research programs, and enhancing pest and disease prevention 
and response efforts.
    I look forward to hearing an update on the Department's 
plans for implementation of these priorities. I believe we 
should be investing in the future of agriculture in rural 
America. As Chairman, I look forward to working with Senator 
Merkley and the other members of the subcommittee to identify 
those priorities and make the most effective and efficient 
decisions on behalf of American taxpayers.
    I look forward to discussing these issues today with you, 
Mr. Secretary, and your team. I also want to thank you for your 
commitment and your advocacy on behalf of our farmers and 
ranchers. Growing up in agriculture, I know that you not only 
know about farming and ranching, you've lived it your whole 
life, and so I have appreciated your commitment and your 
responsiveness.
    Our producers face challenges right now whether it's in 
trade, whether it's the flooding like we've talked about, low 
commodity prices, a whole range of issues. The whole purpose of 
our farm program is to be countercyclical to save money in good 
times, which we want to do, recognize the budget deficit, and 
make sure that we're there for them when they need us. I look 
forward to working not only with this Committee, but with you. 
I appreciate very much our working relationship, and I look 
forward to working with you and your team to draft the best 
budget we can for our farmers and ranchers and be as responsive 
as we can. In that regard, again I appreciate your willingness 
to be responsive and work with us on this budget.
    [The statement follows:]
               Prepared Statement of Senator John Hoeven
    This hearing will come to order. Good morning. The purpose of 
today's hearing is to discuss the Department of Agriculture's fiscal 
year 2020 budget request. Thank you to Secretary Perdue for being here 
today, along with Dr. Johannsson and Ms. Navarro. Welcome.
    I hope today's discussion will clarify the Administration's support 
for rural America and production agriculture. The proposed reductions 
would directly impact the small rural communities many of us call home. 
Production agriculture is the cornerstone of local rural economies, and 
weakening the farm safety net leaves farmers and ranchers vulnerable to 
low commodity prices and unforeseen weather conditions. Farmers and 
ranchers in North Dakota rely on the Department's tools and resources 
to stay in business during these tumultuous times in farm country.
    Cuts to agricultural research undermine our country's ability to 
compete internationally and meet the demands of a growing global 
population. Agriculture remains one of America's net export industries 
due to open trade and we must continue to explore foreign market access 
for our producers.
    While I support many proposals included in the President's budget, 
such as increased funding for our military and defense, the burden of 
balancing the Federal budget cannot be placed on the backs of farmers, 
rural communities, and food aid recipients.
    In our fiscal year 2019 appropriations bill, this Subcommittee made 
great strides towards modernizing infrastructure in rural America, 
increasing funding for agricultural research programs, and enhancing 
pest and disease prevention and response efforts. I look forward to 
hearing an update on the Department's plans for implementation of these 
priorities.
    I believe we should be investing in the future of agriculture and 
rural America. As Chairman, I look forward to working with Senator 
Merkley and other members of the Subcommittee to identify those 
priorities and make the most effective and efficient decisions on 
behalf of American taxpayers.
    I look forward to discussing these issues and others with you 
today, Mr. Secretary. I would now like to turn to our Ranking Member, 
Senator Merkley, for his opening statement.

    Senator Hoeven. With that, I will turn to Vice Chairman 
Senator Merkley.

                   STATEMENT OF SENATOR JEFF MERKLEY

    Senator Merkley. Thank you very much, Mr. Chairman.
    And, Secretary Perdue, welcome. Good to have you here.
    Dr. Johansson, Mrs. Navarro, we appreciate you coming to 
discuss the President's budget proposal for the Department of 
Agriculture.
    And, Mr. Secretary, I've very much enjoyed working with 
you. I didn't particularly enjoy reading this, the budget, 
though. And it has a lot in it that's significant to the 
agricultural economy, to Oregon's agricultural economy, to 
rural America in general, and I'll be interested in hearing 
your thoughts and comments.
    We are currently debating in Congress much needed disaster 
assistance, which is relevant to much of our agricultural 
community across the country. I am pleased that right now the 
bill includes help to Oregon's wine grape growers who very much 
had their grapes affected by the forest fires because of the 
smoke contamination. I hope we'll be able to get this disaster 
bill passed quickly and get these funds out.
    The budget looks very similar to the budget from last year. 
With the recent passage of fiscal year 2019 omnibus, Congress 
differed, changed much of what was proposed, yet the 
Administration once again proposes to eliminate or reduce the 
funding for many of the agencies at USDA.
    Net spending for USDA is cut by more than $4 billion. 
That's a 22-percent cut, while the rural economy, rural Ag 
economy, continues to struggle. So I'm afraid this budget, if 
enacted the way it was, would do more harm than good. The 
budget decimates Rural Development. I go around my State, 36 
counties every year, and I hold an open town hall. By the end 
of this year, I'll hit about 400 town halls since I was 
elected.
    And the circumstances of economic development in rural 
Oregon are like much of the country; they're facing a lot of 
challenges as our country changes. And so to see vital housing 
loan and grant programs, and Rural Business Service 
eliminated--that concerns me a lot. Research funding cut by 16 
percent. The Farm Service Agency by 18 percent. Important 
nutrition programs eliminated. And elimination of the Food for 
Peace and McGovern-Dole. And almost no agency is spared. USDA 
does important work that impacts every single life in America, 
and this budget doesn't reflect that important mission.
    I also have concerns about the proposal to move two vital 
research agencies, the Economic Research Service and the 
National Institute for Food and Ag, NIFA, outside the capital 
region.
    I'm also particularly concerned about the SNAP rule. I 
joined a bipartisan group of 47 Senators who asked you to 
withdraw this, and maybe we can have more conversation about 
that.
    I believe a budget is a reflection of the Administration's 
priorities, and I'm concerned that our farmers and ranchers in 
rural communities are not the priority I'd like them to be. So 
I'm hopeful we can discuss these issues and work on this 
committee, as we did a year ago, to make sure that vital 
programs much needed across America receive the funding that 
they need to operate effectively.
    Thank you so much.
    Senator Hoeven. Thank you, Senator Merkley.
    Are there other opening statements?
    [No response.]
    Senator Hoeven. Okay. Then we will proceed.
    Mr. Secretary, again thank you for being here, and we 
welcome your opening statement.

                  SUMMARY STATEMENT HON. SONNY PERDUE

    Secretary Perdue. Well, thank you, Mr. Chairman, and 
Ranking Member Senator Merkley, and distinguished members of 
the Committee. It's again an appreciated privilege to visit 
with you and talk about appropriations.
    Some of the comparisons of the enacted budget, which was 
just recently passed, occurred after the administration put its 
budget together. So I think it would help all of us, and I know 
you all would like to as well, get right back to a regular 
order of top-line numbers and other type of budget 
authorizations, and then the authorizing committee and others.
    So to some degree, we have handcuffed ourselves in some of 
these comparisons. But I certainly appreciate many of the 
comments that you've made and certainly concur with many of 
them, and I think together we will get a budget out that will 
benefit rural America and our Agricultural economy, and that's 
our goal as we go.
    So we appreciate the efforts here, and I hope you recognize 
that we're doing our best to be responsive to you in many ways 
as the people's elected representatives here. Obviously, our 
founders created a natural tension between the appropriators 
and then lawmakers as well as the executive branch, and we 
really welcome that and the candid discussion of how we 
implement the laws that you've passed, including the Farm Bill, 
as well as the appropriations that you deem that are most 
needed and most effective.
    We are striving, as was said before, in USDA to become the 
most effective and the most efficient and the most customer-
focused agency in the Federal Government in dealing with your 
constituents, and I hope that you have noticed that difference, 
and if we fall short, then we hope that you will identify those 
for us.
    You mentioned the disaster bill. Obviously, that's a 
concern, and hopefully we can reconcile our differences very 
quickly about that. You have some producers, really all over 
the country now, who are from the fire-ravaged areas of the 
West that Senator Merkley discussed to the hurricanes of 
Florida, Georgia, and the Carolinas, to the floods of the 
Midwest, that all are in desperate need.
    The farm safety net you all have created through the Farm 
Bill and through appropriations in the past is a safety net, 
but it does not contemplate utter destruction and disasters 
such as we've seen in these types of situations. So I 
appreciate very much your recognition of that.
    Obviously, trade is utmost on all of our minds, certainly 
from a farmer/producer perspective. From this perspective, we 
are blessed in this Nation to have absolute food security, 
contributing to national security, but that makes us dependent 
on exports and agriculture being one of our export surplus 
sectors in our economy. The trade disruptions of 2018 have been 
very problematic for producers, and while the President 
authorized and we implemented a market facilitation program 
that helped producers in some places, every producer out there 
would rather have a good, fair trading environment than any 
kind of aid in that regard.
    We don't anticipate any of that early--this year, any more 
help. Hopefully, with the talks continuing between China and 
the U.S., we can hopefully consummate a very good trade deal in 
the near future. Obviously, Ambassador Lighthizer is also 
engaged in Japan. So the trade issues continue to be paramount 
as we continue to break down those barriers, seek export 
opportunities.
    Obviously, our Under Secretary for Foreign Ag Service, Ted 
McKinney, is really circling the globe looking for new markets. 
We've become actually too dependent on one large customer, so 
we're looking throughout Indochina, India, and other places 
there that we may sell our products as well.
    Certainly, infrastructure is important in Ag. You all 
understand that, broadband particularly being almost the 
utility of the 21st century, and we appreciate the funding that 
you've given there. We want to do a proof of concept that will 
make you proud over this $600 million that you all appropriated 
last year as well as the $550 this year. These applications 
will begin being received here just in a couple of weeks. And 
there's been a lot of interest from all across the country over 
broadband connectivity. It has influence certainly in precision 
agriculture as well as many other areas.
    Regarding the budget, I look forward to your questions, and 
we'll address those as they come up probably more profitably 
than generally. We're working very hard on Farm Bill 
implementation as well. And I look forward to discussing.
    Obviously, the Administration has a constitutional 
responsibility to present a budget that's fiscally responsible 
and no longer puts off tough decisions. And while at USDA we 
want to be able to support our ag in rural communities, we're 
willing to do our part and whatever it takes.
    So thank you for the opportunity to be with you this 
morning. I look forward to your questions. And I hope that you 
will find that we are doing our best to live up to our motto in 
USDA of do right and feed everyone.
    Thank you, sir.
    [The statement follows:]
                Prepared Statement of Hon. Sonny Perdue
    Mr. Chairman and distinguished Members of this Subcommittee, it is 
a privilege to appear before you today to provide an overview of the 
Department's proposed budget for fiscal year 2020. Joining me today are 
Robert Johansson, the USDA's Chief Economist, and Erica Navarro, USDA's 
Budget Officer.
    When I appeared before you a year ago, I laid out my vision for 
making USDA the best managed department in the Federal government. 
Since then, USDA made great strides toward becoming the most effective, 
most efficient, and most customer-focused department in the Federal 
government. USDA has worked to create rural economic opportunities and 
improve the quality of life for rural Americans. Rural Development 
invested in new and improved high-speed e-Connectivity and electricity 
for 7 million residents and improved water and wastewater 
infrastructure for nearly 3 million rural customers. USDA also launched 
an initiative to provide comprehensive and timely support to veterans 
interested in opportunities in agriculture, agribusiness, and in rural 
America.
    USDA played a significant role in helping rural communities and 
agricultural producers recover from hurricane-related damage and 
wildfires. USDA assistance has included providing children affected by 
Hurricane Florence access to free meals, helping Supplemental Nutrition 
Assistance Program (SNAP) recipients replace food lost due to power 
outages, helped businesses and utilities by considering requests to 
defer principal and/or interest payments, and provided emergency farm 
loans to impacted operations.
    In 2018, the Department worked with Federal partners to deliver new 
and improved trade deals like the United States-Mexico-Canada Agreement 
and a re-negotiated United States-Korea Free Trade Agreement and 
provided trade assistance to farmers due to unjustified trade 
retaliation. Efforts to break down barriers and pursue export 
opportunities resulted in new or expanded market access for numerous 
U.S. farm products in 2018. USDA sponsored six agricultural trade 
missions in 2018, enabling more than 200 U.S. companies and 
organizations to engage in 3,000 one-on-one meetings with foreign 
buyers, generating more than $140 million in projected 12-month sales. 
Similarly, USDA organized exporter participation in 19 trade shows 
around the globe, where more than 900 U.S. companies introduced 4,500 
new products to potential customers and reported $296 million in on-
site sales and $2 billion in projected 12- month sales.
    Since we last met, USDA worked with local school officials to 
explore reforms that will make school meals more appealing by giving 
control back to local school food professionals who know the children 
best. Based on the input received, the Food and Nutrition Service (FNS) 
finalized a rule to allow for more flexibilities for schools to offer 
nutritious and satisfying meals to children, reduce food waste, and 
ease operational burdens for the National School Lunch Program and 
School Breakfast Program. With a focus on the Administration's priority 
of moving SNAP participants to self-sufficiency through work, FNS 
proposed another rule to improve and strengthen our efforts in moving 
able-bodied adults without dependents participants to work.
    We refocused USDA to be more customer-oriented, merging where it 
made sense to maximize efficiencies, while modernizing and optimizing 
Information Technology (IT) to improve delivery of services. USDA stood 
up the Farm Production and Conservation (FPAC) mission area. We also 
launched the FPAC Business Center in 2018 to eliminate redundant 
administrative support functions. USDA successfully merged the 
Agricultural Marketing Service, the Grain Inspection, Packers and 
Stockyards Administration, and the Farm Service Agency's (FSA) 
Commodity Operations programs to better meet the needs of farmers, 
ranchers, producers, and consumers while improving customer service and 
maximizing efficiencies. We continued efforts to optimize and 
consolidate Enterprise Data Centers by closing 21 in 2018 which 
together with prior closures is expected to achieve $21.5 million in 
cost savings/avoidance by 2021. We also decreased the number of 
cybersecurity critical vulnerabilities per endpoint by 62 percent and 
the number of high-risk vulnerabilities by 73 percent in 2018, 
decreasing USDA's weaknesses in software or hardware that can be 
exploited by a hacker. After reviewing the motor fleet, we were able to 
identify over 4,200 underutilized fleet vehicles (over 10 percent of 
the USDA fleet) that are being targeted for disposal, which is 
estimated to reduce USDA costs by $26 million in fiscal year 2019 and 
beyond.
                        2020 president's budget
    The President's Budget recognizes the overriding need to reduce the 
Federal deficit, and USDA shares in the responsibility of controlling 
Federal spending. There are proposals in the budget for USDA that will 
produce real savings in both mandatory and discretionary spending. The 
Budget includes proposals to cut programs that achieved their goals or 
do not work, eliminate wasteful or duplicative spending, streamline 
government operations, and limit spending to achieve deficit reduction 
goals. The President's 2020 Budget lays out a vision for a Federal 
government that is efficient, effective, and accountable.
    USDA's total budget authority request pending before this 
Subcommittee, proposes a total of $143.2 billion in 2020, compared to 
$137 billion in 2019, primarily due to an anticipated decrease in SNAP 
participation and crop insurance payments. The discretionary 
appropriation request for this Subcommittee is $15.7 billion, which is 
lower than the $20.2 billion under the annualized continuing resolution 
for 2019.
    For 2020, we will continue to prioritize customer service every day 
for our customers--the American taxpayers. We will strive to conduct 
the people's business efficiently, effectively, and with the utmost 
integrity. We will promote the ability of America's agricultural sector 
to produce and sell the food and fiber that feeds and clothes the world 
and to reap the earned reward of their labor. By promoting American 
agricultural products, we will work to remove obstacles and give 
farmers, ranchers, foresters, and producers every opportunity to 
prosper and thrive.
    Through our programs and working closely with our customers, we 
will facilitate rural prosperity through the expansion of rural 
business opportunities and improved infrastructure. We will also work 
to preserve the land. USDA will continue to ensure that all Americans 
have access to a safe and secure food supply.
      become the best managed department in the federal government
    For fiscal year 2020, the President's Budget supports new and 
continuing investments in IT modernization by USDA to improve customer 
service and streamline and modernize rural and farm program and service 
delivery. In addition, the Budget continues support for the business 
functions of the FPAC Mission Area by streamlining service delivery 
between FSA, the Natural Resources Conservation Service, and Risk 
Management Agency to improve efficiency, effectiveness, and 
accountability. To maximize the effectiveness of these customer-focused 
improvements, the Department must modernize its own back-office 
technology capabilities. The Budget includes an increase of $31.5 
million to begin the transition to a modernized enterprise network in 
fiscal year 2020.
    In the National Capital Region (NCR), the Department is starting 
the OneNeighborhood initiative to better utilize office space in the 
Washington, DC Headquarters Complex. The Budget requests $266 million 
for the initiative to increase the occupancy capacity through life and 
health safety upgrades; space reconfigurations; and the replacement of 
outdated building systems. The efforts will allow the Department to 
reduce its lease costs in the NCR that amount to approximately $40 
million annually.
    In August, USDA announced we would realign the Economic Research 
Service (ERS) under the Office of the Chief Economist and would 
relocate both ERS and the National Institute of Food and Agriculture 
(NIFA) outside of the NCR. Those changes will imrove customer service, 
strengthen offices and programs, and save taxpayer dollars. USDA 
received 136 expressions of interest submissions from 35 states. The 
firm Ernst & Young was retained to evaluate and conduct the site 
selection process. On March 12, we announced 68 expressions of interest 
remain under consideration. We recognize there are outstanding 
questions regarding this decision and are committed to an open process 
as we move forward together to address concerns. The President's 2020 
Budget includes an estimate of the funds necessary to move these 
agencies outside the NCR, but final costs will be dependent on the 
location selected.
 create conditions so agricultural operations can prosper, fulfilling 
           their mission to feed, fuel, and clothe the world
    Over the past year, USDA responded to conditions that tested the 
resilience of American farmers with initiatives to create economic 
conditions in which they can prosper. With the help of crop insurance, 
natural disaster assistance programs, and short-term trade mitigation 
programs, many producers are managing the stresses of these difficult 
times and are indicating increased optimism, particularly with 
expectations that trade partnerships will strengthen in the near 
future. As we implement the 2018 Farm Bill we will work toward 
achieving the primary goal of farm programs: to help farmers and 
ranchers manage risks and continue producing food, fiber, and fuel in 
good years as well as bad. The Budget estimates net CCC expenditures of 
$6.5 billion which includes all the commodity programs, CRP and CCC 
funded trade programs. This compares to the estimated $20.9 billion net 
CCC expenditures that we anticipate in fiscal year 2019, which includes 
disaster and trade mitigation assistance in addition to the other 
programs.
    In addition to mandatory funding provided by the 2018 Farm Bill, 
the President's Budget provides resources to help agricultural 
operations prosper, fulfilling their mission to feed, fuel, and clothe 
the world. Funding is requested to support the estimated $7.7 billion 
demand for farm loans that provide access to credit to about 48,800 
producers, 80 percent of whom are beginning farmers and ranchers, 
veterans, and socially disadvantaged producers. It provides nearly $1 
billion for the Animal and Plant Health Inspection Service to promote 
the health of animal and plant resources and facilitate their movement 
in the global marketplace, as well as the welfare of certain animals. 
For agricultural research and extension activities, the Budget includes 
a total of $2.9 billion, including $500 million for competitive grants 
through the Agriculture and Food Research Initiative. The Budget 
includes a total of $66 million to take ownership of and operational 
responsibility for the National Bio and Agro-Defense Facility (NBAF), 
in addition to funding to transition and expand the Agricultural 
Research Service and the Animal and Plant Health Inspection Service 
research and diagnostic programs at NBAF.
   expand foreign markets and promote u.s. products around the world
    USDA is committed to helping U.S. farmers and ranchers identify and 
access new export markets and expanding trade opportunities. With 
around 20 percent of farm income derived from exports, it is critical 
that USDA work with the American food and agriculture community to 
ensure farmers, ranchers, and food manufacturers and workers can fairly 
compete against anyone in overseas markets. To support this mission, 
the Budget includes $503 million to reduce trade barriers that 
disadvantage U.S. agricultural exports and to open new markets for U.S. 
farm products. Within this amount, funding is also requested to 
preserve or expand trade valued between $6 billion to $8 billion 
through resolution of foreign market access issues. To facilitate 
exports to buyers in countries that may not have access to adequate 
commercial credit, the Budget includes a program level of $5.5 billion 
for CCC Export Guarantee Programs to provide guarantees.
          facilitate rural prosperity and economic development
    American prosperity and well-being are intrinsically tied to rural 
America's ability to thrive in the new global economy; to build and 
attract an educated workforce and expand its population base; and to 
use its diverse and abundant natural resources to provide food, fiber, 
forest products, energy, and recreation. Through the Task Force on 
Agriculture and Rural Prosperity, the Department has identified actions 
to improve the quality of life and expand economic development in rural 
communities. Many of these actions are supported through investments 
made in USDA lending activities to rural utilities and communities and 
to strengthen investments in housing programs.
    The President's 2020 Budget for USDA includes investments to 
increase prosperity in rural America that are in addition to the 
Administration's $200 billion infrastructure proposal. For USDA, the 
Budget proposes over $2.9 billion in budget authority to support $38.3 
billion in Federal funds to stimulate public-private partnerships 
needed to build rural infrastructure including broadband, community 
facilities, safe and affordable housing, health services and 
facilities, and provide capacity-building to help underserved 
communities become thriving communities. This includes $690 million in 
loans that enhance telecommunications infrastructure and $200 million 
to support loans and grants to support high-speed broadband series to 
communities with populations under 20,000. The Budget supports $5.5 
billion in loans for rural electric improvements, benefiting rural 
residents through the expanded use of smart grid technologies. The 
Budget also includes $1.7 billion to improve water and wastewater 
services for 11.5 million rural residents and $3.1 billion to provide 
access to improved community facilities for over 5 million rural 
residents. The budget provides $24 billion to lenders in providing 
160,000 low- to moderate-income households the opportunity to own their 
primary residence through the single-family housing guaranteed loan 
program. The budget also includes $1.4 billion to fully fund multi-
family rental assistance grants for about 281,000 contracts.
  provide all americans access to a safe, nutritious, and secure food 
                                 supply
    A plentiful supply of safe and nutritious food is essential to the 
healthy development of every child in America and to the well-being and 
productivity of every family. USDA works to help prevent foodborne 
illness and protect public health as well as aid access to safe, 
nutritious, and balanced meals and promote a healthy diet. The Budget 
includes mandatory funds to support estimated participation levels for 
SNAP and Child Nutrition programs, and discretionary funds to serve all 
expected participants level in the Special Supplemental Nutrition 
Program for Women, Infants, and Children (WIC). It also includes the 
funding needed to meet our responsibility for providing inspection 
services to the Nation's meat, poultry, and processed egg product 
establishments.
                            program reforms
    The 2020 President's Budget includes legislative proposals to 
reform programs to better target Federal dollars, while contributing to 
deficit reduction efforts. This includes several legislative proposals 
that we also included in the fiscal year 2019 Budget to better target 
commodity conservation assistance, and crop insurance that would 
generate savings of $47.8 billion over 10 years compared to current 
baseline spending. In addition, the Budget proposes to delink the 
Section 32 program from customs receipts, and replace the receipt 
funding with direct mandatory appropriation direct from the Treasury. 
Our proposal funds all of the current Section 32 nutrition programs and 
provides stable funding for surplus commodity donations the Budget's 
proposals will ensure stable historical levels of funding for all the 
nutrition programs that have traditionally benefited from these 
activities while also increasing transparency, improving operational 
efficiency, generating savings of $5.1 billion over 10 years.
    The Budget also supports a foundational principle that those who 
need assistance have access to wholesome and healthy foods. The Budget 
includes an approach to nutrition assistance that combines the use of 
traditional SNAP Electronic Benefit Transfer cards with a USDA Harvest 
Box that contains 100-percent American grown products. States would 
have the ability to provide choice to their recipients, including 
innovative approaches for the inclusion of fresh products. In addition, 
the Budget focuses on innovative administrative reforms on outcome- 
based employment strategies. The Budget also includes proposals to 
reserve benefits for those most in need, promote efficiency in State 
operations, and strengthen program integrity. Specifically, the 
proposals for SNAP have the potential to reduce waste, fraud, and abuse 
by limiting opportunities for benefits to be misused or trafficked. 
Combined, these reforms to nutrition assistance programs maintain the 
Administration's commitment to ensuring Americans in need of assistance 
have access to a nutritious diet while reducing the cost to taxpayers 
by approximately $216 billion over 10 years.
                            disaster relief
    As I mentioned earlier, farmers and ranchers were battered last 
year by a series of monumental storms, robbing them of their 
livelihoods and inflicting damage well beyond the financial risks they 
normally assume in their operations. These are the men and women who 
dedicate their lives to feeding, fueling, and clothing this nation, and 
we cannot turn our backs on them when they need assistance. In 2017, 
Congress provided supplemental assistance for producers who experienced 
losses not covered by existing forms of relief. USDA stands ready to 
quickly implement assistance, bolstered by lessons learned, for similar 
losses in 2018 should Congress decide once again to act.
                               conclusion
    In the face of a growing national debt, the President has offered a 
fiscally responsible budget that no longer puts off the tough decisions 
to future generations. The budget will support a robust economy that 
created 200,000 jobs in January, with unemployment at 3.8 percent in 
February. Recent estimates predict Gross Domestic Product will grow at 
a rate of about 12.5 percent. Nonetheless, according to the US 
Treasury, the National debt has grown to more than $22 trillion as of 
March 15, 2019. The Trump Administration has proposed a budget that is 
fiscally responsible and no longer puts off the tough decisions to 
future generations. At USDA, we will do our part to reduce government 
spending.
    I would be happy to answer any questions at this time.

    Senator Hoeven. Thank you, Mr. Secretary. Do any of your 
associates have any opening comments before we proceed to 
questions?
    [No response.]

                            TRADE AGREEMENTS

    Senator Hoeven. Okay. Then we'll go to 5 minute rounds of 
questions. Let's start on trade. Give us your latest estimate 
of where we are with getting the United States-Mexico-Canada 
Agreement (USMCA) to the floor to try to get that ratified. I 
believe that we need to get ratified as soon as we can to 
continue our ability to export and trade with Canada, Mexico, 
China, Japan, EU, and any others.
    Where are we in terms of getting something? I know you 
maybe can't say precisely, but give us as much information as 
you can. This is of incredible interest and concern to our 
farmers because of their need to export, but also additional 
sales, too. We are now in year two of the market stabilization 
payment. We need some of these sales. While we're negotiating, 
what about additional sales? So, if you could, give us whatever 
information you can in that regard.
    Secretary Perdue. Absolutely. Let's begin with USMCA. While 
no trade agreement is perfect, I believe if you go chapter by 
chapter, verse by verse, of this agreement, I do believe from 
labor, environment, and certainly agriculture, it's an 
improvement over our NAFTA 1.0, and I think if people are 
objective in looking at that, then they would recognize that 
and hopefully do that. The (ITC) International Trade Commission 
report I think is due out imminently, and that will allow you 
all to begin to consider it seriously. I would hope that we 
could do that sooner rather than later. I think that's a 
statement to the world that we are serious about our trade 
negotiations. So hopefully we can do that.
    Obviously, there is one sector probably in seasonal fruit 
and produce where we were not able to get what we wanted. It 
was on the table. Ambassador Lighthizer fought hard for that, 
but ultimately that, in the spirit of negotiation, had to be 
eliminated.
    Certainly, the China negotiations are very hopeful. I'm 
cautiously optimistic with China. It's never over until it's 
over, but I think the news this morning was that Secretary 
Mnuchin feels that they have an enforcement protocol, which has 
always been a problem in the past, to enforce any agreements on 
both sides that are made. But the numbers for agriculture are 
very hopeful and optimistic. If we can consummate a deal with 
China, it will be extremely good for U.S. agriculture I think, 
as well as the U.S. economy dealing with those issues over 
cybertheft and illegal transfer of intellectual property. So 
that's a good deal.
    Ambassador Lighthizer also is engaged in Japan, 
understanding that the Trans-Pacific Partnership (TPP) 
implementation will continue to disadvantage our farmers very 
quickly, and he understands that, has a good understanding of 
that, and is working hard to get an Ag agreement that is 
certainly equal or better than TPP was initially.
    So those are the issues. While I indicate those are the 
three that are most public, but, again, Ambassador, Under 
Secretary Ted McKinney is going around the world, to Malaysia, 
Indonesia, the Philippines, Thailand, Vietnam, India, those 
kinds of places, as well as China, in order to find other 
customers. The market access portion of the money, the 
facilitation program that you gave last year working with 
collaborators and all industry sectors, I think 57 different 
industry sectors, will help us gain market access and build 
markets for the future, as we did in China.
    Senator Hoeven. Any sense of timing? I know you're in 
negotiations, so on the one hand, you have to be careful in 
what you say about timing, but on the other hand, I know I 
don't have to tell you the concern our farmers have right now 
with prices and moving product. The timing matters. Do you have 
any sense of timing on the agreements?
    Secretary Perdue. Well, that is a challenge. Obviously, 
over timing, you want to make sure you get it right, but I'm 
frankly impressed with how quickly the China discussions are 
moving. The Vice Premier has been to the U.S. at least on three 
different occasions here since Christmas, and I've sat in the 
meetings in the Oval Office, and they seem to be very sincere. 
I am of the belief that both President Trump and President Xi 
of China really want a resolution to these trade discussions. 
And I'm hopeful that we can see that sooner rather than later. 
These are complex agreements, as you know, but much work has 
been done and much agreement.
    One of the things we're excited about at the U.S. 
Department of Agriculture is that many of the non-tariff issues 
having to do with protocols and inspections seem to be covered, 
and some of the non-tariff barriers have been just as difficult 
as the tariff barriers, and that will enable them to accomplish 
the kind of purchases that they put on the table.
    Senator Hoeven. Well, I would ask that if it does 
continue--I mean, if we get a deal sooner, fantastic. If it 
continues to go longer, I would ask that you continue to 
advocate for purchases as a sign of good faith while 
negotiations are going on, because our farmers are on the 
frontlines.
    Secretary Perdue. Right.
    Senator Hoeven. With that, I will turn to Ranking Member 
Merkley.

                            HEMP PRODUCTION

    Senator Merkley. Thank you so much.
    I want to start out with the hemp production program. This 
was a project that Senator McConnell, Senator Rand, Senator 
Wyden, and myself worked very hard to have hemp become a 
significant agricultural crop in America. It is now a situation 
where there are 615 registered hemp growers in Oregon, and I 
know there's a lot in Kentucky as well, and others across the 
Nation. Both the fiber and the CBD oil has made this of great 
interest to people. And yet we don't have rules, and it looks 
like it's not going to have rules until we have the 2020 crop 
year. This is a pretty exciting new opportunity for farmers 
across America. Any way we can speed that up?
    Secretary Perdue. I'd love to, Senator, but probably 
unlikely. As you know, the dairy sector, we are prioritizing 
our dairy farmers in implementing the Farm Bill. This is 
obviously a new issue. It requires a lot of complexities 
because of its uniqueness in its product and similarities and 
things that many States and the Federal Government considers 
illegal. So we have to do this in a more strictly regulated 
environment than maybe a commodity crop that's not like that.
    Senator Merkley. So I've had the chance to go out to a hemp 
farm in Oregon. I don't think it's as complex as you're 
thinking. We both have the marijuana side, very different plant 
from the hemp. I'd like to invite you to join me out in Oregon 
for a little tour of our hemp industry. And we have these 
exciting little local places where we have very rural areas 
where they're setting up oil press operations, a variety of 
different technologies involved. But they're like all excited 
because there's a little production facility in very rural 
parts of the State that rarely get anything new in. And so I'd 
like to share some of that enthusiasm with you, and maybe you 
could appoint three or four people to really just drive this 
through and get it done.
    Secretary Perdue. I'd welcome that actually. We need to 
know more about the industry as a whole. I probably know less 
about that than I do most of the crops, and certainly I would 
welcome that. There's no lack of enthusiasm for sure for the 
CBD oil and others, and I'm interested in really what the fiber 
utilization is, because what are all those industrial uses? 
Because as productive as the American producer is, I am fearful 
that we can crash this market before it gets off the ground.

                             RURAL HOUSING

    Senator Merkley. Yeah. It's very possible. The fiber has 
been so established in Canada for a very long time. It's going 
to take longer to be able to move the fiber operations and be 
competitive there, but the oil, it's competitive right away.
    And so I wanted to turn to housing, rural housing. Your 
budget eliminates the Single Farm Direct Mortgage Program, the 
Repair Loan Program, all the grant programs. And I have all 
these rural communities that say, you know, the challenge is 
when we have an employer who wants to come, there's not 
housing, and yet when we have people who want to build housing, 
they're afraid to build it until an employer wants to come.
    Secretary Perdue. Right.
    Senator Merkley. And so these programs are pretty 
important, and I'd like to encourage you to back restoring 
them.
    Secretary Perdue. Well, I can't disagree with you at all. I 
think many rural areas have a chicken-and-egg situation there 
that you've described. And I think the administration's thought 
on this was that this process would be consolidated in HUD 
rather than the Rural Housing Service. But we understand the 
impact and the effect that rural housing has contributed to 
rural America.

                               BROADBAND

    Senator Merkley. I wanted to turn to broadband. Thank you, 
by the way. Thank you for your support of rural housing. 
Turning to broadband, we pushed very hard to greatly amplify 
the funding elevenfold from $60 million to $600 million, 
another half a million dollars next year. So we're at half a 
billion dollars. So now we have a lot of funds, but the program 
to actually get the broadband grants out to communities has 
been slower than we hoped.
    And the rules are pretty complicated. I'm encouraging 
everybody to apply even if they think they don't fit the rules 
because what I'm hearing is very few communities will fit 
exactly with what's been laid out. But this is such a big need. 
So many rural economies just--they're like, ``We can't keep 
people here,'' or, ``We can't draw people here if we don't have 
good broadband.''
    So I just want to encourage the fastest possible, most 
generous rollout. If people's scores are low because they don't 
meet the programs exactly, but they bother to apply, I'm 
telling people to apply anyway; there are going to be funds 
left, and maybe you'll honor those grants that don't fit every 
single aspect.
    Secretary Perdue. I very much appreciate you all 
appropriating another $550 million on top of the $600. We're 
really on the cusp of receiving the applications now, but the 
portal has been open since December. We work with technical 
experts. These are complex applications there, and the way you 
all design the rules for unserved areas, it didn't happen as 
quickly as I'd like for it to happen either, but I think we 
wanted to get it right.
    We wanted to prove the concept that USDA can really 
facilitate these types of broadband transformations. We've got 
$200 million in outright grants. That will be the first thing 
that goes in April 23rd. We've got $200 million coming in May 
over the loan-grant combinations. And then $200 million coming 
in June in the loan applications.
    So there's been tremendous interest. I share your 
enthusiasm. I think this is probably the moonshot 
transformation that we could do if we could connect rural 
America in the 21st century data usage.
    Senator Merkley. Thank you.
    Senator Hoeven. Senator Moran.

                          ERS-NIFA RELOCATION

    Senator Moran. Chairman, Thank you.
    Secretary Perdue, welcome.
    I want to start my time to applaud your efforts, your 
efforts to relocate NIFA and ERS outside of Washington, D.C. I 
believe that government offices that are located closer to 
people, the people they serve, is a positive thing. And I 
reject the argument of some that something outside the national 
capital diminishes its value to farmers and to the country.
    Kansas City, the city that splits the border between 
Senator Blunt and I, has 5,000 USDA employees today, and to say 
that their value to the country is something less than an 
employee within the Department in Washington, D.C. is offensive 
to me. And so there are good people doing good work across the 
country. And I'm happy to see you pursue this.
    I would ask you if you want to provide an update on this 
topic, where we are. Funds in this budget affect this decision 
and the things that you and we can do to make sure that those 
employees that relocate to those locations have all the staff 
and training and necessary components to fulfill their jobs.
    Secretary Perdue. Well, thank you very much for your 
support, Senator. I really have been a little surprised with 
the naysayers on this. I would love to understand more about 
their issues. About 90 percent of USDA employees are outside 
the National Capital Region. You mentioned Kansas City. We've 
got a great firm there. Minnesota, New Orleans, and many other 
places across the country are doing a great job, Ames, Iowa.
    And we've had 139 expressions of interest. That's been 
winnowed down to a middle list. We hope to have sort of the 
finalists within probably a 3-week time period where we'll 
begin actual negotiations, which will allow us to provide a 
cost-benefit analysis, a real benefit analysis, for you all, as 
the appropriators, to determine. My goal is to treat this as an 
economic development project much like it was always used 
against me when I was Governor. Six or seven hundred Federal 
jobs is a pretty good aplomb for economic development. So we 
expect to get some good proposals here, and we'll go back to 
those few finalists here and ask for their last and best offer 
in that regard. If I can't bring a deal to you that I think 
makes sense, then I wouldn't expect you all to approve it, but 
I think we'll find some real interest out there that begins to 
help in the reasons that we began to think about this as far as 
quality of life and people recruiting some of these young Ph.D. 
with families outside where they can live a better quality of 
life.

                      U.S. MEXICO-CANADA AGREEMENT

    Senator Moran. Mr. Secretary, please consider me an ally in 
that effort. Also, please consider me an ally. I've offered to 
the White House and to the USTR, to the Trade Ambassador, to 
provide whatever leadership I can in support of USMCA's 
approval by Congress, and I would make the same offer to you. 
Please put me to work. It is a trade agreement that is of 
significance. I would make the pitch one more time that we 
should not withdraw from NAFTA until USMCA is approved. And I 
would ask, assuming that you agree with me, that you would 
convey that to the administration.
    Secretary Perdue. We have, and we'll continue to advocate 
very strongly for that position.

                        FLOODING IN THE MIDWEST

    Senator Moran. Thank you, Mr. Secretary.
    I recently toured flood damage in Kansas with our FSA State 
Director. The floods that occurred, at least initially, in 
Nebraska have worked their way down to the northeast corner of 
Kansas. I'm watching the weather this weekend, in which South 
Dakota is to get 18 to 24 inches of snow. We know that the last 
flood we had in Kansas of this magnitude occurred in July. This 
one is occurring in March. There's a lot of rain, spring rains, 
and a lot of snowfall, snowmelt, yet to come.
    I would ask you just one specific question at the moment 
about this topic. Could you provide me, either today or in the 
near future, the most up-to-date estimate of the Emergency 
Conservation Program (ECP) budget shortfall? And would you and 
the Department support funds being appropriated to cover the 
backlog?
    Secretary Perdue. The answer to the second question is 
absolutely we'll support that.
    The first question is we don't know yet. The assessments 
take a while with the flood waters receding, and as you 
indicated, potentially even more coming with snow and snowmelt 
coming down, it could be greater. So we don't have good 
assessments of that. Currently, we're working with our State 
partners both in the State and our Federal FSA and NRCS 
officers across there. If there's a shortfall in that, the good 
thing about it on the Livestock Indemnity Program, you all 
lifted the cap on that, so that's helpful to many, many people 
that will lose a good amount of livestock in those areas, and 
we're prepared to support that. But if there are shortfalls, we 
will certainly advise you of what we assess the damage to be 
and ask for what's needed.
    Senator Moran. This may be, Mr. Secretary, we think will be 
the most important program for farmers and ranchers damaged in 
Kansas, will be ECP, and there's already backlog in that 
effort. And we've always funded ECP and filled the shortfall. 
We're trying to do so in the emergency appropriation bill, and 
we could use your help in accomplishing that.
    Secretary Perdue. Well, I hope we can also get the disaster 
bill out, which would backfill that ECP need, and the watershed 
issues, and correcting those streambanks, and, you know, the 
flooding. And I've never seen the ice associated with the 
flooding the way it apparently happened here with huge ice 
blocks that can just carve and really destroy streambeds.
    Senator Moran. I agree. I've never seen anything like it.
    Thank you, Mr. Chairman.
    Senator Hoeven. Senator Tester.

                            TRADE AGREEMENT

    Senator Tester. Thank you, Mr. Chairman.
    I could go into a climate change discussion right now, but 
we'll hold off on that and we'll stick with Ag.
    Look, we're on the cusp of planting season in Montana. 
Thank you for being here, Mr. Secretary. We're on the cusp of 
planting season. I'm in that business, as you know. You're in 
that business, you know. The fact is that show me a crop we can 
plant right now that's worth anything. It's really hard. And 
I'm going to tell you, though I appreciate the trade mitigation 
famous for our agriculture, the more we do those kind of 
things, the more taxpayers' ears go up and go, ``Well, you know 
what the farmers are getting. Why are equipment dealers getting 
it?''; ``Equipment dealers are getting it. How come the gas 
distributor isn't getting it?''
    So we've got a problem, and I think we've got a problem not 
only in Montana, but across this country. I can give you quotes 
from folks who were in agriculture. Lyle Benjamin, who is 
president of the Montana Grain Growers Association, which is 
one of the largest grain association in the State, says it's 
going to be hard to break even this year. When you can't break 
even, you go broke.
    Rural America is under attack, you know that. We're losing 
people right and left. We lost them in the '80s. I think we're 
on the cusp of losing a whole bunch again. Bankers tell me 
you've got about 18 months. Well, we're just about at 18 
months. TPP has gone into effect without us. I just heard 
Montana farmers are planting 310,000 fewer acres of wheat, 
which is great, but what are we going to plant? Are you going 
to plant pulse crops? They're not worth anything. I'll get into 
hemp in a minute.
    But the fact is there is so much uncertainty going on right 
now, and with the tariffs in both directions, John Deere 
announced an increase in their equipment costs, fuel prices are 
trending up. This is a recipe for disaster in rural America, 
and it is manmade.
    We stepped out of TPP. One of Montana's biggest customers 
was Japan. We no longer have the trade advantages that places 
like Australia do now with Japan. We don't have any trade 
advantages. In fact, they have the trade advantages. You know 
the story, you've heard it. If you haven't--I know you have. 
Okay.
    The question is--and I know the chairman talked about this 
a little bit with China--is there bilateral trade talks going 
on right now with Japan?
    Secretary Perdue. There are--and you know, Senator, that 
I'm not the negotiator in that regard.
    Senator Tester. And when do you anticipate an agreement 
with Japan?
    Secretary Perdue. We have a U.S. Trade Representative, and 
I think the question would be better delivered to him. I do 
know of his interest. I do know his understanding of the 
disadvantage American producers will have regarding TPP.
    Senator Tester. Yeah.
    Secretary Perdue. But I'm hoping it will be sooner rather 
than later.
    Senator Tester. Well, I'm here to tell you that I know that 
some folks in production agriculture want to see the guys go 
broke because the smaller ones will go first and they think 
they can buy them out. But I'm telling you, from a rural 
America perspective, a rural Montana perspective, this is not a 
good thing. From a food security perspective, this is not a 
good thing. You've got less producers, you've got more 
evacuation from rural America, you've got schools closing down, 
you've got hospitals closing down, you've got a mess, and it's 
a mess that's caused by us, not like in Kansas with the floods, 
it's caused by us.
    And so I hope the guy who is negotiating is listening 
because time is of the essence here, and if you can help push 
him, and I know you're a good man, I hope you do. We've got to 
have trade. I mean, we eat a lot of food domestically, but if 
we don't have foreign markets, we are hosed, and so it is 
really important.
    Now I want to talk about hemp. One of those crops that we 
might have been able to raise in Montana, and, by the way, we 
still could raise this season, is hemp. I can go into the 
agronomic effects of hemp, but you know that monoculture is 
something that doesn't work too well. So if you can put another 
crop in the rotation, break up wheat and disease cycles, it's a 
good thing. Hemp is one of those crops.
    Secretary Perdue. Sure.

                            HEMP PRODUCTION

    Senator Tester. Just like pulse crops were a few years ago 
in Montana where we raised nothing but winter wheat and barley, 
now we can raise pulse crops. It's a good thing. It's a good 
thing for the communities. It's a good thing for business.
    I get that this might be a complicated thing, but doesn't 
the law allow you to accept State plans?
    Secretary Perdue. Senator, the 2014 Farm Bill allowed for 
that. They will still be able to continue under the 2014--
    Senator Tester. DEA won't let them because the 2018 Farm 
Bill supersedes that.
    Secretary Perdue. Who won't let them?
    Senator Tester. DEA.
    Secretary Perdue. Oh.
    Senator Tester. So right now, when they could have used the 
pilot program from a few years back.
    Secretary Perdue. I have not heard that.
    Senator Tester. You correct me if I'm wrong, correct me if 
I'm wrong, but I think I'm right, they could plant it, but when 
the new Farm Bill got signed, it superseded the previous one, 
and now they can't set or seed until the USDA acts. And what 
I'm asking you to do is you have the capacity to adopt those 
State plans. Do it. And then people in Montana can start 
raising the stuff, we can start developing markets for 
pressing, we can develop markets for the roughage. We can wear 
clothes that will never wear out. And, by the way, I've got a 
hemp hat I've been trying to wear out for 20 years that I got 
out of Canada. You can't wear the stuff out.
    And so I implore you, especially with all the trade stuff 
that's going on, please, please look at your options and look 
from the perspective of not why. ``How can we not do it?'' but, 
``Dammit, we've got to do it.''
    Secretary Perdue. I'm a ``do it'' person, Senator. I know 
that.
    Senator Tester. You wouldn't be successful in business if 
you weren't.
    Secretary Perdue. And with all due respect, if we had a 
Farm Bill by September the 30th, I think you'd have some rules 
here as well.
    Senator Tester. I get that, but you do have the option of 
accepting those State plans.
    Secretary Perdue. That is our policy currently, that we're 
accepting the plans under the 2014 Farm Bill until we can fine-
tune these regulations in the 2018 Farm Bill.
    Senator Tester. So what you're saying.
    Secretary Perdue. This DEA is news to me.
    Senator Tester. So what you're saying is, that farmers in 
Montana can plant hemp based on--
    Secretary Perdue. Based on the rules that the State was 
operating under the 2014 Farm Bill.
    Senator Tester. I will get back to you on that because 
right now the farmers are telling me they can't get seed out of 
Canada. They could under the 2014 bill.
    Secretary Perdue. If that's the case, we'll look at it as 
well, and I look forward to talking with your office about 
that.
    [The information follows:]

    Hemp seeds can be imported into the United States from Canada if 
accompanied by either: 1) a phytosanitary certification from Canada's 
national plant protection organization to verify the origin of the seed 
and confirm that no plant pests are detected; or 2) a Federal Seed 
Analysis Certificate for hemp seeds grown in Canada. It is important to 
point out that these requirements are distinct from Drug Enforcement 
Administration's (DEA) requirements. In the coming days, we plan to 
publish an announcement that the DEA no longer has authority to require 
hemp seed permits for import purposes. Hopefully, this will resolve any 
confusion that remains in the marketplace.

    Senator Tester. Thank you. Have a great Easter.
    Secretary Perdue. Thank you.
    Senator Hoeven. Senator Collins.

                        SENIOR FOOD BOX PROGRAM

    Senator Collins. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    Secretary Perdue. Good morning.
    Senator Collins. I want to bring up with you today the 
Senior Food Box Program. This is a program that's vital to 
lower income seniors in the State of Maine, and Maine happens 
to be the oldest State in the Nation by median age. It's also a 
State with a lot of low-income older Americans.
    Just to give you an idea of the reach of this program, 
there is a food bank called the Good Shepherd Food Bank in 
Auburn, Maine, which alone distributes approximately 9,000 
supplemental food boxes each month to partner agencies across 
the State, which, in turn, distribute them to seniors, and 
that's just one, albeit the largest of our food banks. 
Unfortunately, this program, which really makes a difference to 
the nutritional well-being of our seniors, was eliminated in 
the Administration's budget. What is the justification for 
eliminating the Senior Food Box Program?
    Secretary Perdue. That's a good question obviously, 
Senator. I'm a big fan of the food box, in fact, that was the 
beginning of the origin of our Harvest Box idea for SNAP, and I 
think it's worked very well. While the budget doesn't reflect 
that, I can't give you a justification for that. I think I'm a 
big fan of that. I know that a lot of seniors depend on that, 
and our food banks have done a great job in doing that.

                        PEST MANAGEMENT PROGRAMS

    Senator Collins. Thank you. And I appreciate that answer, 
and I hope that's something where we can work together and 
secure the funding, which is not that significant, but, boy, 
it's significant to a lot of our rural seniors.
    Mr. Secretary, I'm also concerned about the proposed 
elimination of funding for USDA programs that help farmers 
protect crops from pests and diseases. And I have to say this 
strikes me as a penny-wise but pound-foolish cut. The proposed 
budget would zero out the funding for the Integrated Pest 
Management Program as well as the Minor Crops Pest Management 
Program, two initiatives that have been very helpful to Maine 
growers over the decades.
    Initiated in the 1970s as a potato-specific USDA pilot 
program, the University of Maine's Cooperative Extension's 
Integrated Pest Management Program is an integral part of my 
State's agricultural industry. What began as a small potato 
pest management pilot program has blossomed into a 
sophisticated multidisciplinary hub helping Maine farmers 
control pests and disease, diseases on a wide range of crops, 
including potatoes, apples, blueberries, cranberries, 
strawberries, and sweet corn.
    And this program has also helped to prevent harmful 
infestations that would decimate entire crops. And I want to 
give you an example. In the late 1990s, there was a new strain 
of late blight that was found in Maine that could not be easily 
controlled with fungicides as previous strains had been. And it 
was the Integrated Pest Management Program that isolated this 
harmful new strain, developed a specific remedy for it, and it 
saved potato growers from losing their crops and extraordinary 
revenue losses. In fact, without the work that was done by this 
program, the entire existence of the Maine potato industry 
would have been in serious jeopardy.
    So, Mr. Secretary, my point is that I think it makes a lot 
more sense to invest up front in these programs, these research 
and pest management programs, that keep our crops healthy than 
to have to pay out enormous sums in disaster payments of when 
farmers lose--or crop insurance when farmers lose their entire 
crop.
    So again I would ask for you to work with me and the 
committee to see if we can restore the funding for a program 
that I know personally, coming from potato--the potato land in 
Aroostook County in northern Maine has made a real difference.
    Secretary Perdue. I would welcome that, Senator. You've 
articulated extremely well the benefits of integrated pest 
management. Having a career in agribusiness, we've utilized 
that program all along. I would submit to you it's also been 
part of the growth of the organic industry as we learn to do 
things without crop protection chemicals in a different and new 
way. So I couldn't agree with you more.
    Senator Collins. Thank you. It has indeed been a key boost 
to the organic farms that we have in Maine. And that's the 
fastest growing part of our agricultural sector in the State of 
Maine. So thank you very much.
    Senator Hoeven. Senator Udall.

             POLYFLUORALKYL SUBSTANCES (PFAS) CONTAMINATION

    Senator Udall. Thank you, Mr. Chairman.
    And great to see you here, Mr. Secretary. Always a pleasure 
to have you up here on the Hill.
    Mr. Secretary, Senator Collins and I recently sent you a 
letter asking for your assistance for farmers who have been 
devastated by PFAS contamination.
    Secretary Perdue. Right.
    Senator Udall. You are familiar with that, I think. In New 
Mexico, the source of this contamination is a U.S. Air Force 
base using firefighting foam. In Maine, I think it's a 
different source, but the impacts are the same. Tens of 
thousands of gallons of contaminated milk have been dumped, 
workers and livestock exposed through drinking water, and 
farmers facing bankruptcy. One farmer has 4,000 cows that are 
contaminated by this, and he can do nothing with them, nobody 
will take them.
    So I want to thank you because the USDA has been very 
helpful. But we need more help identifying programs and 
funding. In particular, I'm hoping you can work with us to 
ensure programs like the Dairy Indemnity Program and the 
Livestock Indemnity Program are used to their fullest extent 
for assistance here. Can we get your commitment on that?
    Secretary Perdue. We have, sir. As you noted, we have been 
working with a producer, the large producer, in New Mexico as 
well and trying to understand the standards certainly from the 
meat perspective, getting standards there of what's acceptable 
and what's not in that way. But I think we, as the Government, 
have responsibility, particularly if it's an iatrogenic type of 
issue such as we see in New Mexico. Maine may be different, but 
we've got the same solutions that need to be addressed in Maine 
as well.

            ENVIRONMENTAL QUALITY INCENTIVES PROGRAM (EQIP)

    Senator Udall. Yeah. And then turning to the EQIP program, 
which you're very familiar with, I've fought for years to make 
sure acequias and land grants are eligible for EQIP. The 2014 
Farm Bill included important authority for this Department to 
enter into alternative agreements with acequias. Acequias are 
these irrigation, old-time Spanish irrigation, ditches in 
northern New Mexico that have been there for 400 years, and 
part of that is related to land grants.
    In the most recent 2018 Farm Bill, we built on this success 
and cut some of the red tape. Now land grants and acequias can 
apply directly to NRCS for Federal dollars. This is a big deal. 
Hundreds of land grants and acequias can now directly access 
Federal dollars for work on their communal lands and their 
infrastructure.
    Mr. Secretary, I appreciate new laws require new rules, but 
I do not want to lose the momentum while we await final EQIP 
rules. One idea is to allow acequias and land grants to enter 
into pilot project agreements. What will your Department do to 
ensure continuity of funding to acequias and land grants while 
you finalize the EQIP rules?
    Secretary Perdue. Well, as you know, the EQIP program has 
been one of the more popular conservation programs you all have 
generously funded, and although you generously fund it, it's 
always been oversubscribed as well. So this is going to create 
more demand and may create more need for funds in the EQIP 
program. But we're working feverishly on all these conservation 
issues to implement the Farm Bill as you all wrote it.
    There are various issues and, by the way, I need to 
mention, Mr. Chairman, you may want to look at the funding for 
the implementation of the Farm Bill. That seemed to be fairly 
slight this year compared with the new changes. You got new 
software, you got new training, you got different things like 
that that we're trying to work to get it right because the EQIP 
program, having been oversubscribed with this new influx of 
customers who certainly are well prepared to apply and do that, 
we look forward to the collaboration, but there will be some 
challenges going forward.
    Senator Udall. Good. And, as you know, local input drives 
better decisionmaking, so we hope that the NRCS will hold local 
listening sessions in New Mexico while you develop the EQIP 
rules.
    Secretary Perdue. We certainly would welcome that.

                               BROADBAND

    Senator Udall. And you mentioned broadband. One part of the 
whole broadband issue is in rural broadband providers, 
including tribally owned broadband providers. There's one in 
New Mexico called MATI--M-A-T-I in caps--and they would very 
much like to be a part of this program. So I hope that you can 
provide us an update on the refinancing of our U.S. loans, and 
will they be available to companies such as tribally owned 
entities in my State?
    Secretary Perdue. We certainly expect them to. If they need 
particular technical help in applying, then we would also offer 
that.
    Senator Udall. Great. Well, thank you very much.
    And thank you, Mr. Chairman.
    And I appreciate working with Senator Collins on this PFAS 
issue. It's a national issue. It's one that is growing because 
the contamination, I believe, is on about 123 Air Force bases 
flowing into communities, and it's one that we really need to 
get ahold of.
    Thank you, Mr. Chairman.
    Senator Hoeven. Senator Baldwin.

                       DAIRY PRODUCTION AND TRADE

    Senator Baldwin. Thank you, Mr. Chairman.
    Secretary Perdue, Wisconsin's dairy industry is in crisis 
right now. Our farmers have faced low prices for far too long. 
They are seeing their export markets blocked and lost to 
competitors these days. Threats to close the southern border 
would actually dramatically deepen this crisis and this pain.
    In the past two years, Wisconsin has lost more than 1,300 
dairy farms. That's roughly equivalent to 15 percent of our 
dairy farms. Farmers need stable markets. They need a way to 
sell their product at a fair price. And they should not be 
caught in the middle of trade wars with no end in sight.
    Mexico is by far our biggest dairy export market, and it 
buys about a third of the cheese that we export. I'd add to 
that that in Wisconsin, 90 percent of the milk goes into 
cheese. So access to the Mexican market is really, really 
important to Wisconsin farmers. And I'll tell you, even with 
passing comments about closing down ports of entry has got 
Wisconsin farmers and cheesemakers extremely concerned.
    This comes on top of Mexico's retaliatory tariffs against 
cheese and the uncertainty of trade renegotiations. So, 
Secretary Perdue, Wisconsin's dairy farmers have been waiting 
patiently to see these trade issues resolved, but it has cost 
them dearly, and we're going to see more farms lost if this 
doesn't turn around and soon.
    So I want to hear from you what steps you are taking with 
your colleagues in the Administration to resolve these trade 
issues and keep our borders open for trade.
    Secretary Perdue. Sure. Let's start with the good news. 
What you all did in the 2018 Farm Bill regarding dairy is just 
transformational. There's no doubt that the dairy sector in 
your State and others probably were under more duress than any 
other sector there. We've heard some interest in getting the 
hemp rules out earlier. We focused on dairy because they are 
the people that have been in business, they continue to go out 
of business, and we're trying to expedite the implementation of 
the Farm Bill in the dairy sector quickly.
    Just in a couple of weeks they will start getting the 
refunds over the premiums they paid on the Margin Protection 
Program. That will come along. The applications for the new 
program in June, we expect to have the retroactive payments 
from January 1st over the new Farm Bill provision. It will be a 
real benefit to your dairy farmers in Wisconsin, certainly 
those with herds less than 250,300 cows.
    Regarding the trade issue, there is no doubt one of the 
problems we've gotten into in the milk prices over the country 
is that our producers have produced too much, we are 
overproduced. While farms have gone out of business, not many 
cow losses are there. We have many of the same, but cow losses, 
they've gotten bigger and more efficient in that regard.
    Certainly, we have advocated to the Administration. I don't 
see any threat right now to close the border. We've advocated, 
I think as well as others, how detrimental this would be to 
U.S. commerce as well.
    Regarding the USMCA, you make the case for an expeditious 
approval of USMCA, not just because of Mexico, but the 
additional access to the Canadian market if we get through that 
as well, which your producers, as you know, this Class 7 milk 
were harmed greatly in the Class 7, which has been eliminated.
    Senator Baldwin. Yes. I'm going to cut you off there just 
because I have a couple of other questions. But I do want to 
just follow up on this one to say both Mexico and Canada have 
said that they will not finalize the USMCA until the U.S. 
removes the 232 steel and aluminum tariffs. What do you see as 
a path forward on that?
    Secretary Perdue. We are advocating to the President that 
he can accomplish his goals in revitalizing the steel industry 
and aluminum industry in the U.S. through a quota system as 
combined with a tariff when they exceed that quota, and 
hopefully he will come to see that that is an effective tool to 
continue to support our domestic steel industry as well.
    We've advocated for the removal of the 232 retaliatory 
tariffs ever since the agreement was signed. In practice, I'm 
hoping we can see that reconciliation prior to the vote of in 
all three nations.
    Senator Baldwin. Thank you.
    Mr. Chairman, I've run out of time. Are you going to 
contemplate a second round of questions?
    Senator Hoeven. I am.
    Senator Baldwin. Excellent.
    Senator Hoeven. Which will start right now.
    [Laughter.]

                           FARM BILL FUNDING

    Senator Hoeven. Mr. Secretary, relative to funding for Farm 
Bill implementation, that is something that we'll look at. I'm 
on both the Agriculture Committee and Ag Appropriations, and 
there should have been more in the Farm bill for 
implementation. There was in the 2014 Farm Bill, so the 
shortfall is something we're going to have to address in 
appropriations.
    Secretary Perdue. It's a significant reduction----
    Senator Hoeven. Yeah. And that's fine. We'll work on it 
here, and we'll be talking about what you think you need.
    Secretary Perdue. Okay.

                            CELL-BASED MEAT

    Senator Hoeven. But, yeah, it's something we have to do. 
Can you update us on cell-based meat? We had Scott Gottlieb in 
before he left, and he kind of gave us his perspective. Please 
give us yours.
    Secretary Perdue. Well, obviously, some people have thought 
the USDA is against any kind of alternative protein. While we 
support our cattle industry, they've supported us for many 
years and with great wholesome products to feed a world of 10 
billion people in the short term.
    We're looking at all opportunities. I think the MOU that's 
signed between USDA and FDA gets the right jurisdiction over 
them doing the laboratory work. When once that protein grows to 
the place of being harvested, that's when USDA comes in with 
the same kind of quality assessments it has on our live cattle, 
and the branding and the labeling and all of that, that's when 
USDA will become involved.
    So I think we have a good point of handoff between FDA and 
USDA on the cell-based meat. Thank you for your help.
    Senator Hoeven. Very important. From our cattle producers' 
standpoint, it is very important that you're in charge of 
labeling so the consumer knows when they're getting ranch-
raised beef and other products.
    Secretary Perdue. And our goal is for the consumer to be 
informed, understanding where that product came from, and they 
can make the choice. If they find no quality distinction, then 
the choice is up to them, but we don't want to treat a new 
innovative product any different or more favorably than our 
traditional products.
    Senator Hoeven. You will appreciate the next question on my 
list because the Farm Bill included $15 million for 
implementation. How do you plan to allocate those resources, 
and will they be sufficient to meet the Department's needs? But 
you've already answered that.
    Secretary Perdue. Yes.

                               BROADBAND

    Senator Hoeven. And we knew the answer, but obviously have 
that same concern.
    Thank you for your comments on broadband. That was 
something I was going to bring up as well. Anything else you 
want to bring upon broadband? We obviously have made that a 
funding priority, and now the rollout is very important.
    Secretary Perdue. Well, if you all have particular 
constituents in your State that find it difficult to negotiate, 
we would welcome to help them. There's a lot of information on 
the web, and it's been communicated really since even during 
the shutdown. We work with different groups and interest groups 
to help them complete. We're looking forward to these 
applications that will come in and early appropriations for the 
dollars so they can get started. This absolutely is, I think, a 
transformational moonshot that I believe has the ability to 
connect rural and urban America in a way that we haven't seen 
before.

              FUNDING FOR FARM SERVICE AGENCY (FSA) LOANS

    Senator Hoeven. Yeah, I think so. I think there's a lot of 
excitement out there about the program, so we're looking 
forward to it.
    Will a proposed FSA loan level sufficiently meet producer 
demand? You know, we raised the FSA direct loans and also the 
guaranteed loans--I actually tried to raise it higher. I mean, 
the costs of agriculture production have gone up so much.
    Secretary Perdue. There's no doubt about it. And I think 
your recognition in the Farm Bill of raising limits will help. 
We'll see. I can't answer directly. Obviously, based on a 
stress that we've talked about in the Ag community, Senator 
Tester talked about, there's a lot of demand out there. There 
are people that are going to look to the FSA for their lending 
this year that may not have in the past.
    Senator Hoeven. The capital requirements are just so high 
now. A small farmer is still deploying millions of dollars in 
capital.
    Secretary Perdue. And that's why you see the economy of 
scale getting larger and larger, and farms growing larger and 
larger. But we'll have the census information out this 
afternoon. It will be a great data point for you all to look at 
some of these issues as well.

                                FOOD AID

    Senator Hoeven. The food aid programs are important. We're 
cutting the budget, but this Committee obviously is committed 
to them. Your thoughts on food aid?
    Secretary Perdue. Again, this is something the 
administration has again chosen to do. They want to make sure 
that it's done well. You all in Congress have had a different 
opinion, and I don't know that I can disagree with that 
regarding how it's utilized. I visited with Governor David 
Beasley the other day with the World Food Program and talking 
about how we can be more effective in USDA and working with 
them in that regard. Certainly, the administration in the 
number of budgets, that's where much of the reduction comes 
from in the USDA budget, and we acknowledge that.

                              DISASTER AID

    Senator Hoeven. To me, it's a win-win in that we provide a 
certain amount of foreign aid in a way that is helpful to our 
farmers. It just seems like a win-win in that respect.
    Thank you for the flexibility you provided on the Livestock 
Indemnity Program in a very timely way. Your flexibility was 
very helpful with what the cattle producers are going through 
right now.
    Are there any other issues that you want to make sure are 
recorded that I haven't brought up?
    Secretary Perdue. No. Again, I think the disaster is a real 
key. I mean, we've got situations we're not going to be able to 
cover with the safety net that's provided in the 2018 Farm 
Bill, and I think you all know that. It's just a matter of the 
need is great, and for those people who are affected, it's 
devastating when you're in that period or place where things 
have been devastated. So hopefully we can get that to resolve 
very quickly.
    Senator Hoeven. Well, we need to, and that's why your 
flexibility and responsiveness is really helpful in addressing 
what's going on out there right now with flooding and other 
disasters, so we appreciate that.
    Senator Merkley.
    Senator Merkley. Thank you. I am going to mention several 
programs very rapidly. I'll have to follow up with your team.
    Secretary Perdue. All right.

                               SNAP RULE

    Senator Merkley. Rural Energy Savings Program, which 
enables rural co-ops to do on bills, loans for energy saving 
for both businesses and households, means a lot of rural 
construction jobs. It's just starting to get into rhythm. 
Fourteen co-ops across the country have adopted, others are in 
the pipeline. It's rural construction jobs in places that don't 
have them, and that's important.
    African swine fever, a lot of concern about the imported 
meat possibly contaminating American hog production. A million 
swine have died in China. I just want to follow up on what 
we're doing to try to prevent that from contaminating our 
industry.
    Livestock Forage Disaster Program has been very important 
for many of our ranchers following our forest fires out in 
Oregon. I know there are other different impacts across the 
country--tornadoes, hurricanes, and so forth--but I'd hate to 
see that program go away.
    On January 1, 2020, the labeling law is going to go in for 
bioengineered food products, but it has a number of problems. A 
QRC code, which is a block computer code, is going to have a 
label, ``Scan here for more food information.'' Nobody has any 
idea that it has to do with getting information on 
bioengineered, plus nobody in the supermarket is going to stop 
and scan those codes, and they're not even going to be informed 
why they would do so.
    The bioengineered sugar and oil is exempted from being 
considered bioengineered. I know my colleague from Michigan was 
assured that that would not happen, but that's exactly what we 
thought would happen from the language that was inserted. It's 
exactly what is happening.
    So it's really a misleading of Congress and the American 
people. We can do a lot better on giving fair information and a 
pathway to get the details. I realize not everything can be put 
on the package.
    I'm very concerned about the clean water supply and 
wastewater treatment. Small communities have to meet new 
standards, but it's really expensive to do for a small number 
of people. And so there is a calculation of the subsidy rate 
that has expanded in ways that are very surprising. I'd like to 
have my team sit down and understand better how the subsidy 
could have risen from .17 percent to almost 5 percent over 2 
years, which means because of that calculation, far fewer 
grants and loans can be put out to these small communities. And 
I can tell you that is a big problem for them being able to 
have growth or industry in these rural communities.
    And then I wanted to turn to SNAP. And Oregon uses the 
waiver, and I've got a list here of the counties that are--
received the waiver. We have 36 counties, 22 of which got the 
waiver. This is over the 3 months in a 12-month period. They're 
all very rural counties. I mean, this is striking at the heart 
of rural Oregon where you don't have the same jobs you have in 
an urban area. You have transportation difficulties that you 
don't have elsewhere, were as we get more mechanized in the Ag 
sector, a lot of the jobs are disappearing off our ranches and 
farms, so that's affecting them. We don't have rural housing 
construction, which we just talked about.
    We don't have--so I think the States should be left 
empowered to make this decision, but this proposed rule, you're 
not--you're striking my poorest, most rural counties with this 
rule. I think let the State make the decision. Leave the States 
empowered, and I just--on this piece, I do want to take my last 
minute and see if you have thoughts about it.
    Secretary Perdue. Certainly. We still give the States some 
authority to do that. They still can determine--let me just 
give you the guidance here. State agencies are responsible for 
assessing an individual's fitness to work on able-bodied issues 
methodically and comprehensively. The individual doesn't need 
to be receiving disability and benefits.
    We believe, again, from education and training, our goal is 
to help these people to sustain permanently, not indefinitely, 
on a food assistance program, which we think is more helpful. 
You can have 20 hours a week volunteer and others. If your 
local communities are higher unemployment there, still the 
waiver applies to them over that as well as the State having 12 
percent set aside for no reasons at all. So we think the 
flexibility that States are given, if used properly, is in 
keeping with the Farm Bill from a perspective of 1996 over the 
work requirements.
    Senator Merkley. Well, I'll tell you the average lifetime 
in America is 12 months. So that's over a lifetime, a working 
lifetime, of 480 months. That's a pretty small factor. And, 
again, these are my most rural, my most difficult places to 
find jobs, that are going to be affected by these changes. And 
we've often been a State that's among the hungriest in the 
Nation, not something we like, but this will make our situation 
in rural Oregon a lot worse.
    Secretary Perdue. We look forward to addressing all these 
other issues that you've addressed, and we want to converse 
with your staff and answer your concerns over these issues as 
well.
    Senator Hoeven. Senator Moran.

                  NATIONAL BIO-AGRO SCIENCE LABORATORY

    Senator Moran. Mr. Chairman, thank you.
    Mr. Secretary, thank you.
    Let me go back to something the chairman said, talking 
about food aid, and I just would highlight unfortunately there 
are four famines ongoing around the world today. I want to 
particularly talk about McGovern-Dole, or as we say in Kansas, 
Dole-McGovern, Food Program. Every year that this program has 
been zeroed out, which is every year in the last three, the 
explanation is unaddressed oversight and performance monitoring 
challenges. Mr. Secretary, if those--I say this with a smile, 
but if those really exist, fix the problems, don't zero out the 
account. And this is an important program to our country, its 
farmers, but, most importantly, it helps lots of young people 
be fed around the globe, and I would encourage the Department's 
support.
    In fact, I visited with you and with others about--I 
remember showing you a pile of grain in front of an elevator 
from two harvests ago that hasn't been marketed yet. And then 
we learn and know that there are people who die every day 
because they don't have food, and we ought to do a better job 
of connecting the two.
    In a more specific issue, I know that a month ago the 
effort began to hire a new director at the National Bio-Agro 
Science Laboratory. This position, I hope you would share my 
view, is absolutely critical to the future of this project. And 
I'm curious as to where we stand on the recruiting effort. I 
hope it was more than just an announcement that you're hiring. 
I hope that you've been out encouraging individuals to apply, 
people with certain kind of characteristics, backgrounds, and 
intellect. Tell me where we are in that regard, please.
    Secretary Perdue. We're not as far along as I would like. 
Our recruitment efforts have not been as aggressive as I would 
like, and we've had discussions recently about that, about 
fulfilling that. It's a beautiful facility, coming along well. 
We appreciate the transfer of the appropriations from DHS to 
here, but it can't run without the right people, and I know 
that I share your concern about that.
    Senator Moran. If you don't know at the moment, would you 
let me or my staff know how many positions beyond the director 
are posted and remain open?
    Secretary Perdue. We will do that.
    [The information follows:]

    Forty-four positions at NBAF have been posted to date, including 
those positions which will be filled using veterans hiring authority. 
Of those positions, 21 offers have been extended. We are committed to 
hiring the remaining positions as quickly as possible to ensure a 
smooth transition of NBAF ownership between DHS and USDA, and a 
transition from Plum Island to NBAF.

                MENTAL HEALTH SERVICES IN RURAL AMERICA

    Senator Moran. Thank you very much.
    Then let me visit just a couple more issues. In the last 
Farm Bill, we were successful in including legislation called 
FARMERS FIRST. This deals with suicides among producers. The 
committee provided, this committee provided, $2 million in 
fiscal year 2019 for the network. Can you speak to the 
importance of rural mental health services to fill in the gaps 
in what is currently available to those farmers and ranchers? 
I'm looking for an update on the Farm and Ranch Stress 
Assistance Network.
    Secretary Perdue. Well, certainly, as the anxiety, as the 
stress, develops in the farm sector based on low prices, we see 
more and more of that. We also see opioid addictions as well, 
leading to opioid addictions or suicides or deaths by overdose. 
So this is an important effort, and rural development is 
heading this up, and it's always sad to hear things in places 
where you're unsuccessful, but we understand the need to have a 
network out there with call lines and helps, and hopefully we 
can continue to do that.
    Senator Moran. Please make this a priority along with all 
the other many other priorities that you have at the 
Department.
    Secretary Perdue. Sure.

                         DEALER STATUTORY TRUST

    Senator Moran. The 2018 Farm Bill directed USDA to do a 
feasibility study on Dealer Statutory Trust within a year. Do 
you anticipate that USDA will be able to provide that study to 
Congress at that time?
    Secretary Perdue. I do, certainly within a year. That gives 
us plenty of time to understand how the Dealer Trust applies to 
other types of similar situations we have with livestock and 
others to do that. I think we'll have plenty of time to have a 
good proposal for you going forward.
    Senator Moran. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Hoeven. Senator Hyde-Smith.

                             CROP INSURANCE

    Senator Hyde-Smith. Thank you, Mr. Chairman.
    Mr. Secretary, thank you so much for the support that you 
have given the American agriculture through your leadership at 
the Department in a very tough time. I have been so very 
impressed with you, and I greatly appreciate your efforts 
coming from a producer.
    You know, as we're currently seeing the changes in the 
South and the Midwest of the severe flooding posing serious 
threats to the overall health and productivity of the 
agriculture industry, in recent years, Mississippi farmers, 
particularly those who farm the fertile lands within close 
proximity to the Mississippi River, have been subject to more 
frequent and severe flooding, such as my friends the Gedons 
[ph], who have farmed close to the Mississippi River for 150 
years. Some have even lost an entire crop 2, even 3, years in a 
row now. This has made it difficult for them to find affordable 
crop insurance policy that provides them the level of 
protection that they need.
    A provision, Section 11122, included in the Crop Insurance 
Title for the 2018 Farm Bill, directs the Department of 
Agriculture's Risk Management Agency to develop a less cost-
prohibitive policy for producers in areas such as this. The 
provision directs RMA to consider premium rate adjustments, 
automatic yield exclusions, for consecutive year losses, and 
flexibility of final plant dates, and prevent plant 
regulations.
    Should this subcommittee provide the adequate funding in 
the fiscal year 2020 agriculture appropriations bill, would you 
commit to ensuring that the Risk Management Agency works with 
these farmers impacted by flooding to ensure they have adequate 
and affordable crop insurance options?
    Secretary Perdue. Senator, this is an issue that I would 
love to have further discussions with you on. The premise of 
the crop insurance is statutorily sound or statistically sound, 
and we don't need to violate that principle. Obviously, where 
houses have flood insurance, we may want to look at it from a 
crop flood insurance provision to have something like national 
flood insurance that way. I would like to look at the 
provisions that you've quoted in a better way to commit that 
what we can do from these growers that does not violate the 
statistically sound premise of crop insurance where those 
people may go into areas where it is more subject to flooding 
on an ongoing basis and just plant because of the backstop of 
crop insurance. We don't want to encourage that, but we may 
need to look at something like a national flood insurance 
premium, which may be what you're describing there, but I don't 
have the details from that today, but I'd love to discuss that 
with you further.
    Senator Hyde-Smith. Thank you very much, because this is a 
serious concern, and these are very good farmers that, you 
know, do it for the right reasons.
    Thank you.
    Senator Hoeven. Mr. Secretary, Senator Baldwin is on her 
way back. She did have a few more questions for you. I know you 
have to be out of here at 11:30, but we'll have you out then or 
prior. And the Ag Census is coming out.
    Crop insurance. I never talk to our producers without them 
saying their number one risk management tool is crop insurance. 
And now, more than ever, it's very important that there are no 
cuts to crop insurance because they need that protection right 
now. They need that help now more than ever. So just address 
that for me for a minute, will you?
    Secretary Perdue. Well, again, I hear the very same thing, 
that this has been the best type of partnership, safety net, 
between the Federal Government and the risk management 
strategies that farmers themselves use. So I think I couldn't 
agree more that crop insurance is vital for the safety net to 
continue. And we look forward to addressing that with you.
    Senator Hoeven. It's very important, and as you work with 
RMA, that there are no cuts or reductions in what our farmers 
can do under that crop insurance because, like I say, right now 
it really is a critically important tool for them given the 
challenges that we've been talking about.
    Secretary Perdue. Acknowledged.

                         DEALER STATUTORY TRUST

    Senator Hoeven. I also want to touch back on the Dealer 
Statutory Trust. I'm glad that Senator Moran brought that up. A 
number of our auction barns have talked to me about that as 
well. Do you have any preliminary thoughts on that issue? Have 
you heard from the auction houses and the concerns they have?
    Secretary Perdue. We have heard from that, obviously, 
mostly from producers in that area as well, and from Senator 
Moran's office as well, about this, and we're looking to create 
a trust product that could be utilized and funded by the 
commerce that goes on in that way. But it's a guard for 
unscrupulous or difficult financial situations that people find 
themselves in. But certainly when that becomes viral, many 
producers selling into an entity that is not able to pay them, 
out of no fault of their own, then it becomes difficult. So I 
think a trust type of product is well needed, and we look 
forward to producing--recommending what we think will work.
    Senator Hoeven. Well, is there any pushback that you're 
aware of? I mean, all I've heard is that auction houses have 
come in and said there are cases where they're not getting 
paid. They're paying the seller, but then because there's a 
lien on the animals, they're not getting paid, and so they're 
just left holding the bag. So that's particularly what I wanted 
to address. Is there a pushback against it?
    Secretary Perdue. I think the financial sector may have 
some concerns over the security issue there that we'll know 
more as we get into it, but I don't----
    Senator Hoeven. So the reason for the 1-year study is to 
analyze the security issues?
    Secretary Perdue. Right.

                          FPAC BUSINESS CENTER

    Senator Hoeven. How about you talk a little bit about 
progress on your Business Center and how that's going as far as 
the standup.
    Secretary Perdue. Well, we've been very pleased with the 
consolidation that occurs there. It gives a more consistent 
approach to problem solving within USDA, both in FPAC and other 
ways. It's a consolidation of those back-office operations, 
such as HR and IT and procurement and those types of things 
that make sense. We want to leave the decisionmaking on the 
ground, out in the field, for those people that have to deal 
with that, but on the back-office operations, that's what we're 
trying to consolidate and make it more consistent rules and 
with the business center concept.
    Senator Hoeven. Are you comfortable in terms of where you 
are with the budget and the funding you have that you're 
getting that done and have the resources to do it?
    Secretary Perdue. I think so. We're going to take what you 
all give us and do the very best we can. That's just what we 
do, but I think at this point, I don't have any serious 
complaints about that.

                         DISASTER SUPPLEMENTAL

    Senator Hoeven. As far as the disaster supplemental, are 
there aspects that you are particularly concerned that get 
addressed or that are in the process that you want to bring up 
as we try to get a package done?
    Secretary Perdue. Well----
    Senator Hoeven. And also, to the extent we don't have it 
done, are there areas where you can help until that funding 
gets out there?
    Secretary Perdue. Now, to answer your last question, sadly, 
no. We are deploying every emergency disaster provision that 
you give us in the Farm Bill there, but some of this utter 
destruction is not contemplated. That's not a safety net. A 
safety net is a help that is normal in times. When you have 
utter destruction as you had in the floods or in hurricanes, 
tornadoes, or wildfires, the Farm Bill doesn't contemplate 
that.
    We've got the situation in northern Florida and southern 
Georgia really over timber and pine trees. We faced it in 2017 
with citrus. We had never done that before. But we created the 
Wildfires and Hurricanes Indemnity Program with a block grant 
that I thought has gotten extreme compliments over the way it 
was administered. We're going to have to look at some things 
that have never been done before.
    Some of these people--trees, for instance, are not 
considered necessarily a crop, but they are, just with a longer 
growing cycle. This was other people's livelihood. Mississippi 
and Arkansas, Alabama, the Carolinas, Georgia, pine trees were 
what was paying putting the kids through college.
    So I think, again, the discretion you all gave us in 2017, 
we would love to repeat that with the 2018 and 2019 disasters, 
but really getting it done and getting it appropriated is a 
real issue. I don't have that many problems with what you put 
in it, but it needs to be done sooner rather than later.
    Senator Hoeven. All right.
    I turn to Senator Moran. Any other questions that you have?
    Senator Moran. No, Mr. Chairman.
    Senator Hoeven. All right.
    Well, we're checking just to see if--oh, here she is. 
Perfect timing.
    Your timing is just right, Senator. We just finished up. 
Senator Baldwin.
    Senator Baldwin. All right. Catch my breath here. Let's 
see. All right.
    Senator Hoeven. Are you saying that he leaves you 
breathless? Is that it?

                             DAIRY PROGRAMS

    Senator Baldwin. I am saying that--Dr. Francis Collins left 
me breathless in our other subcommittee.
    Last year, we provided funding for Dairy Business 
Innovation in this subcommittee and through the appropriations 
bill, and the Farm Bill really built on those efforts by 
including the text of the bipartisan Dairy Business Innovation 
Act, which I introduced with Senator Collins. Can you please 
provide an update on the implementation of these provisions?
    Secretary Perdue. I'll have to get back with you on that, 
Senator. I'm not intimately familiar with the innovation. 
Obviously, the diary sector needs as much innovation as it can 
with their two stresses, obviously, milk prices, trade, as well 
as labor, and all those innovations that can help are needed. 
But I will get back with you over those specific issues of what 
we've done and what we are doing with those recommendations.
    [The information follows:]

    The 2018 Farm Bill directed AMS to establish not less than three 
regionally located dairy product and business innovation initiatives. 
The 2019 Agriculture Appropriation provided $1.5 million for this 
program. In mid-April 2019, AMS plans to announce the availability of 
this funding. The application deadline will be mid-June and grants are 
expected to be awarded by the end of September.

    Senator Baldwin. Well, certainly, when they can add value 
to the product on the farm or at the processing stage with new 
innovation, it is one of those tools that help our dairy 
farmers withstand these challenging times. So I hope we can get 
these funds out and working as soon as possible.
    To the same sense of urgency, the new Dairy Margin Coverage 
Program for the Farm Bill would be paying farmers right now 
because margins are so low. Farmers are making business 
decisions as we see spring come for this year's crops, and 
they're doing so without the information that they would 
usually have available to really get to understand the new 
Dairy Margin Coverage Program. When can farmers expect to have 
a decision tool to use to evaluate their choices for this 
program? And when can they expect to receive payments? I know 
you've commented on that already, but the decision tool sort of 
comes first.
    Secretary Perdue. Sure. We think the refund from the prior 
premiums will be out in a couple of weeks, April 23rd possibly. 
The decision tool should be forthcoming right after that. But I 
can tell you dairy farmers right now, they're really not going 
to need a tool but they're going to like it, and they will want 
to sign up for it. They obviously need to know the levels, and 
we understand it's more difficult than that.
    But the decisionmaking tool hopefully will be in May, early 
May, in that way so they can make those plans. And the signup--
certainly they can sign up, but the payments going, that will 
be retroactive to January 1st depending on what choice they 
made, should be done in the probably second week or third week 
of June.
    Senator Baldwin. All right. Thank you.
    Senator Hoeven. Mr. Secretary, thank you again for being 
here today. Thank you to Dr. Johansson and Ms. Navarro as well. 
We appreciate having you here.

                     ADDITIONAL COMMITTEE QUESTIONS

    For members of the Committee, if there are additional 
questions, we'd ask that they be in within a week, and response 
within 4 weeks thereafter.
               Questions Submitted by Senator John Hoeven
                             veterinarians
    Question. Federal veterinarians play a critical role in ensuring 
the safety of the U.S. food supply. That's why this Committee provided 
FSIS with dedicated funding to address the persistent vacancy rate of 
public health veterinarians within the Agency in the fiscal year 2018 
omnibus.
    How is FSIS using the funding provided by Congress to address the 
public health veterinary workforce needs?
    Answer. FSIS is appreciative of the additional funds provided in 
the fiscal year 2018 Consolidated Appropriations Act to recruit public 
health veterinarians (PHVs). To recruit and retain PHVs, the agency 
offers a combination of recruitment bonuses and student loan repayment 
incentives. Examples include:

  --Recruiting incentives such as paid relocation to their first duty 
        station, and a $20,000 sign on bonus paid over 4 years ($5,000/
        year) incentive that applies to all newly hired PHVs regardless 
        of the location of the vacancy.

  --$500 towards continuing education reimbursement offered to the FSIS 
        in-plant veterinarians.

  --Student Loan Repayment Program, which entails $10,000/year for up 
        to 3 years (up to a total of $30,000).

  --Adel A. Malak Scholarship Program:

      --Up to 20 students per year.

      --Up to $15,000 per year towards tuition, books, lab fees for 
            each year in the program in return for a work commitment to 
            FSIS.

    Question. FSIS also created a Veterinary Recruiting and Outreach 
Coordinator (VROC) position. The VROC participates in national 
veterinary conferences where FSIS has a recruiting booth to discuss 
career opportunities with FSIS and benefits.
    The VROC is contacting and visiting every American Veterinary 
Medical Association (AVMA) accredited veterinary school. During these 
visits, the VROC meets with staff/faculty from academic affairs to 
discuss a partnership between the school and FSIS whereby FSIS 
participates in lectures associated with food safety topics. The VROC 
also meets with students to discuss FSIS and career opportunities in 
the agency. The VROC participates in veterinary school career/job 
fairs. The VROC reaches out to each job candidate within a week of 
submitting an application to provide information about the agency, 
answer questions, and help the candidate identify the best position for 
them based on their interests.
    The VROC is a program administrator for the American Association of 
Veterinary State Boards (AAVSB) Registry of Approved Continuing 
Education (RACE) accreditation. Each month, the VROC finds a speaker/
topic for a PHV seminar that is delivered via WebEx. Veterinarians in 
the field can attend the interactive seminar. The seminars are approved 
by RACE for continuing education credits that veterinarians can use 
towards maintaining their veterinary licenses. Seminars are available 
to all veterinarians and it ensures that FSIS fulfills its commitment 
of maintaining an engaged and educated veterinary workforce.
    Have these efforts been successful in addressing recruitment and 
retention concerns and reducing the overall vacancy rate for public 
health veterinarians?
    Answer. FSIS has been working to increase the retention rate and 
recruit more PHVs. As described in the response to the first question, 
we have undertaken a number of initiatives to help us reach our goals. 
Thus far, we have seen fluctuating rates, which is to be expected as we 
implement new recruiting and retention measures. We will continue to 
move forward with our initiatives and evaluate their effectiveness over 
time.
    Additionally, in exit interviews with FSIS public health 
veterinarians, work-life balance is frequently cited as a reason for 
leaving FSIS and pursing employment with other Federal agencies. 
Because FSIS is appropriated for the standard 40 hours worked per week 
by inspection personnel, any FSIS coverage provided to establishments 
outside of those hours are billed as reimbursable overtime. To bill as 
reimbursable overtime, per statute, the same FSIS veterinarian or 
inspector has to be working and be in overtime status. While some may 
welcome the overtime, others may not always want to work additional 
hours for various personal reasons. FSIS has submitted a statutory 
change in its fiscal year 2020 budget request to provide flexibility to 
bill establishments for overtime regardless of the personnel providing 
the coverage. FSIS anticipate this will help with recruitment and 
retention of PHVs.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                   acequias and community land grants
    Question. In the 2018 Farm Bill, acequias (community ditches) and 
community land grants in New Mexico were recognized as eligible for 
certain conservation programs such as EQIP. This is a major step 
forward in improving access in New Mexico's historic and traditional 
agricultural communities. Farmers and ranchers from these communities 
have indicated that the most efficient pathway to implementation of 
this language is to have a guidance document from NRCS that allows 
state and local offices to proceed with applications. I appreciated 
your assurances, Mr. Secretary, that you will ``certainly welcome'' 
listening sessions as you begin to develop guidance for the provisions 
Congress passed in the 2018 Farm Bill.
    Please specify how you intend to solicit input from local 
communities in general and land grants and acequias in particular.
    Answer. Shortly after the 2018 Farm Bill was enacted, USDA hosted a 
listening session to provide the public, partners, and other 
stakeholders the opportunity to comment on the new Farm Bill 
provisions. The Natural Resources Conservation Service (NRCS) received 
35 comments specific to water conservation and irrigation efficiency 
practices including comments related to acequias, land grants, and 
other water management entities. NRCS is considering these comments in 
the development of the Environmental Quality Incentives Program (EQIP) 
interim rule. The EQIP interim rule is expected to be published in the 
Federal Register later this Fall.
    NRCS will provide a 60-day public comment period after the EQIP 
interim rule is published in the Federal Register and is specifically 
seeking comments on the new provisions related to EQIP contracts with 
water management entities. NRCS will use available media and conduct a 
robust outreach campaign to ensure the public is aware of the 
opportunity to comment on the new provisions.
    NRCS will also conduct a grassroots outreach campaign utilizing the 
local working group process and the State Technical Committees to 
ensure that water management entities including acequias and land 
grants are aware of the opportunity to apply for assistance and that 
the funding is targeted in a way that provides the greatest amount of 
producer and environmental benefit.
prioritizing hiring staff through the conservation technical assistance 
                                program
    Question. In response to my question regarding Acequias being 
eligible for the EQIP program, you noted concern that Congress didn't 
provide necessary funds to implement the conservation measures in the 
2018 Farm Bill and therefore there may be `some challenges going 
forward.' However, Congress has generously provided funds for NRCS 
through the Conservation Technical Assistance program which your fiscal 
year 2020 Budget requested a significant cut to. Additionally, before 
the Senate Agriculture Committee last April, Ranking Members Debbie 
Stabenow directly asked you whether you would hire staff to the full 
levels provided in Congressional Appropriations bills in order to 
quickly implement the farm bill. Your response stated that you were 
reviewing staffing plans to accomplish the necessary customers service 
but you wouldn't commit to spending the dollars provided. These two 
statements seem counter to each other as NRCS continues to be severely 
understaffed across the country.
    Can you explain to me how NRCS is prioritizing hiring staff using 
funds provided to the agency through the CTA program and why the agency 
is choosing to not hire staff to the level provided in our 
appropriations bills if you feel Congress did not provide enough funds 
to implement the 2018 Farm Bill?
    Answer. We recognize there are staffing shortages in areas around 
the country and are taking action to address the needs.
    In February 2018, we initiated the Optimally Productive Office 
(OPO) Study. From this study an analytical tool was built to provide 
the Farm Production and Conservation (FPAC) leadership with data to 
determine where to place staff and locate offices to efficiently and 
effectively serve customers. The tool has helped to inform critical 
hiring decisions since late fiscal year 2018. It does not look at 
programs individually to assess need but rather it takes a 
comprehensive approach in evaluating each office and each programs' 
activity within an office in a consolidated assessment. The study uses 
data to help us objectively identify several important things to help 
better balance customer service and costs, including:

  --Current, anticipated, and unmet customer demand;

  --Optimal USDA geographic footprint based on customer locations;

  --Employee productivity in delivering services and programs;

  --Field office staffing capacity; and

  --How to improve productivity and service to customers.

    We have made significant progress with hiring. As of September 28, 
2019, 8,694 NRCS positions are on board with another 1,290 hiring 
actions currently pending.
    In order to accelerate the hiring process:

    We have deployed the ``HR Tracker'' tool to ensure we are as 
transparent and accountable to our hiring managers as possible. This 
automated system has streamlined workflows from the hiring manager, 
supervisor, hiring specialist, and personnel security specialist. It 
also surfaces process bottlenecks that are addressed to speed the 
hiring process. For example, standardized position descriptions were 
created for more than 150 FPAC positions which has cut classification 
time 50 percent.
    During the first quarter of fiscal year 2020, we are scheduled to 
deploy robotic processes to reduce the burden on our hiring specialists 
who currently work in multiple systems to manage positions, announce 
vacancies, and onboard employees. The time saved from this robotic 
processing will enable our hiring specialists to provide better service 
for the Mission Area.
    We are also working to more effectively link our Human Resources 
Division (HRD) with our Homeland Security Division (HSD) to provide a 
seamless workflow from the moment HRD begins working with hiring 
manager to develop their hiring plans to developing the vacancy 
announcement to selecting the best candidates to the background checks 
required before an applicant may begin work.
                    racial and gender discrimination
    Question. What policies and procedures are in place at the USDA to 
ensure that the racial and gender discrimination that led to the 
Pigford, Garcia, Keepseagle, and Love is not systemically occurring 
within the agency?
    Answer. USDA is committed to ensuring that the civil rights of its 
customers, partners, and employees are recognized and protected in the 
delivery of our programs and services. As described in the Secretary's 
Civil Rights Policy Statement, the Department strives each day to do 
right by all people equally regardless of race, religion, gender, 
national origin or any other characteristic. There is a zero tolerance 
for any form of discrimination. This standard is across the board in 
all agencies, offices, programs, every employee and to applicants of 
federally assisted programs and services.
    Question. Specific examples of these policies and procedures 
include the development of Civil Rights Impact Analyses for 
organizational changes and regulatory actions; compliance reviews of 
agency-level civil rights activities; regular reporting of participant 
data to and oversight by the Office of the Assistant Secretary for 
Civil Rights; and timely investigation and handling of complaints of 
discrimination to ensure that issues are addressed quickly to ensure 
that the rights of program participants and employees are preserved. 
All USDA employees complete EEO training in compliance with the NoFEAR 
Act. In addition, each agency conducts supplemental training on EEO and 
civil rights matters addressing the unique needs of each agency.
    How is USDA communicating to socially disadvantaged farmers that 
civil rights are an important priority to the agency?
    Answer. The Office of the Assistant Secretary for Civil Rights 
(OASCR) provides guidance to departmental offices and mission areas for 
conducting effective outreach to minority groups. The OASCR meets 
monthly with mission area civil rights directors to discuss removing 
barriers to program access and advance Secretary Perdue's vision of Do 
Right and Feed Everyone by ensuring farm programs serve all Americans 
efficiently, effectively and with integrity. In addition, the OASCR is 
collaborating with mission areas to align external fam program 
activities to specific civil rights priorities. For example, in July 
2019 the OASCR partnered with mission areas to conduct a program 
highlighting American Indian influences on American agriculture. In 
response to program complaint trends, the OASCR implemented a meet and 
greet strategy to conduct outreach with USDA State Directors in Alabama 
and Georgia. The OASCR recently completed a joint review of Farm 
Service Agency (FSA) programs in Oklahoma and additional reviews are 
planned in fiscal year 2020.
    USDA organizations actively work to demonstrate to socially 
disadvantaged producers the importance of civil rights. For example, 
the Office of Partnerships and Public Engagement (OPPE), through the 
Outreach and Assistance for Socially Disadvantaged Farmers and Ranchers 
and Veteran Farmers and Ranchers Program provides grant funding to 
organizations that assist farmers and ranchers own and operate 
successful farms. In addition, OPPE also maintains the Socially 
Disadvantaged Farmers and Ranchers Program Policy Research Center in 
partnership with Alcorn State University to identify opportunities to 
improve program delivery for socially disadvantaged producers.
    Another example is found in the FSA as it targets a portion of all 
its guaranteed loans and its direct operating and direct farm ownership 
loans to historically underserved farmers and ranchers, including 
socially disadvantaged producers. Through the use of Socially 
Disadvantaged Applicant funding, FSA is able to support the needs of 
individuals who have historically been underserved.
                  non-insured crop assistance program
    Question.How are updates to the Non-Insured Crop Assistance Program 
(NAP) going to be implemented so that risk management coverage options 
are available for beginning and socially disadvantaged farmers and 
ranchers and how will that coverage be coordinated between Farm Service 
Agency and Risk Management Agency?
    Answer. The 2018 Farm Bill continued the Noninsured Crop Disaster 
Assistance Program (NAP) service-fee waiver and fifty-percent premium 
reduction provisions afforded beginning and socially disadvantaged 
farmers under the 2014 Farm Bill and extends those provisions to 
veterans. FSA has updated policy in handbook guidance making the 
provision effective for 2019. FSA is capturing all 2018 Farm Bill 
statutory changes for NAP and is in the process of publishing those 
changes in a final rule. The buy-up coverage levels, which were 
extended with the 2018 Farm Bill, are already in place and available to 
all producers, including beginning and SDA farmers. In terms of sharing 
information on beginning farmers, SDA, and veterans with RMA, the 
Agencies are working together to develop an efficient process for 
sharing this information.
                   land access and farmland ownership
    Question. The 2018 Farm Bill includes a data initiative on Land 
Access and Farmland Ownership to track ownership, tenure, barriers to 
entry, and viability of beginning and socially disadvantaged farmers.
    How will this new initiative be implemented, how will the data be 
used to inform agency decisionmaking, and how will data be made 
accessible to the public?
    Answer. Data from the Tenure, Ownership and Transition of 
Agricultural Land (TOTAL) project is the only comprehensive source of 
information on agricultural land owners in the United States. This data 
helps USDA understand how costs and benefits of land based issues are 
distributed across farmers and non-farmers as well as spatially (rural 
and non-rural; in-state and out-of-state). This information is also 
critical for understanding the characteristics of farmland owners/
sellers and developing policies and programs that address ways to 
enhance producer access to agricultural land, land and farm housing 
affordability, and security of tenure.
    The National Agriculture Statistics Service (NASS) last released 
TOTAL information on August 31, 2015. Section 12607 of the Agricultural 
Improvement Act of 2018 authorized NASS to collect this information not 
less frequently than once every 3 years while also authorizing the 
appropriation of $3,000,000 for each fiscal year 2019 through 2023. At 
this time, NASS does not have funding to carry out the activities 
related to the TOTAL data collection. NASS plans to conduct TOTAL as 
part of the Census program in 2024 if discretionary appropriations are 
not received before that date.
    Data from this project would be made available through the NASS 
Agricultural Statistics Board release procedures in a similar process 
to the 2015 release. That information is publically available on the 
NASS website at the following location: https://www.nass.usda.gov/
Publications/AgCensus/2012/Online_Resources/TOTAL/index.php. In 
addition, the Economic Research Service (ERS) will use data from the 
2017 Census of Agriculture summary information to characterize the 
share and geographic distribution of beginning and socially 
disadvantaged farmers and ranchers. The report will be made publicly 
available via the ERS website once it has been drafted, reviewed, and 
cleared.
                   women, infants, and children (wic)
    Question. For WIC, the President's Budget recommends a decrease of 
over $26 million in the Nutrition Services & Administration grant that 
is unrelated to projected participant decline. The NSA grant funds core 
WIC public health services, including nutrition education, 
breastfeeding support, and health screenings--all essential and highly 
acclaimed WIC success missions--as well as program management. 
Moreover, NSA grants are forced to absorb many EBT costs that the 
grants were never designed to absorb and have stymied WIC pay scales 
that are inadequate to sustain dedicated nutrition professionals.
    What justification can you offer for this decrease in funding?
    What are the monthly operational costs for WIC?
    Would you agree that, on its own, the current WIC contingency fund 
is insufficient to support program operations for at least a month in 
the face of unforeseen economic or funding challenges?
    Answer. As a discretionary grant program with two-year funds, the 
WIC Program relies on appropriated funding as well as recovered unspent 
funds from the prior fiscal year to allocate food and NSA grants to 
State agencies. Declining participation has resulted in higher levels 
of prior year unspent food funds. When the recovered unspent food funds 
are run through the WIC funding formula, they are split between food 
and Nutrition Services Administration (NSA), resulting in additional 
NSA funds for the current fiscal year above the appropriated funding 
level. Due to the lower than anticipated food costs in fiscal year 
2019, there will be sufficient unspent funds available in fiscal year 
2020 to cover a $26 million decrease in NSA funding as a result of a 
lower appropriation.
    In fiscal year 2018, the latest full year for which information is 
available, the WIC Program spent about $5.43 billion, which is about 
$450 million per month.
    The WIC Contingency fund is currently funded at $150 million. With 
average monthly program costs in excess of $400 million, the current 
$150 million in WIC contingency reserves would not fully support 
program operations for 1 month on its own.
                   wic-breastfeeding peer counselors
    Question. We know that breastfeeding is the best form of infant 
feeding and WIC has done an exceptional job of increasing breastfeeding 
rates with the help of trusted breastfeeding Peer Counselors. 
Nevertheless, the Breastfeeding Peer Counselor set-aside has not 
received an increase in nearly a decade and in fact is budgeted at $30 
million less than the authorized level.
    Are current funding levels sufficient to ensure that there is a 
peer counselor in every clinic?
    Answer. The current fiscal year 2019 funding level of $60 million 
provides for peer counselors in about 70 percent of WIC local agencies.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                            dairy producers
    Question. The 2018 Farm Bill made significant improvements to the 
dairy safety net. Once implemented, these changes will provide 
immediate relief and support for our dairy producers. Putting these 
changes into the field must be an urgent priority of the USDA. I am 
pleased by your past remarks that you share this priority, and intend 
to begin enrollments for the new Dairy Margin Coverage by June 17. I 
urge you to meet this timeline. It's also important for producers to 
have access to information as they make coverage decisions, 
particularly now that the Farm Bill allows them to use multiple risk 
management options.
    What is the timeline for updating USDA's calculator tool for dairy 
producers, and will it integrate dairy safety net programs within both 
FSA and RMA to allow producers to compare different programs or combine 
them?
    Answer. The DMC Dairy Decision Tool was recently updated and now 
reflects the DMC dairy margin estimates for the 2020 calendar year. 
Currently, the Farms Service Agency (FSA) is in discussion with Dr. 
Mark Stephenson of the University of Wisconsin regarding whether the 
Risk Management Agency (RMA) programs (LGM-Dairy and Dairy-RP) can be 
incorporated into the decision tool format.
              organic dairy producers/origin of livestock
    Question. The organic sector requires a distinct label that is 
trusted, verified, and enforced. That is the whole point of the law. 
Yet I continue to hear troubling reports of inconsistencies in the 
enforcement and interpretation of regulations related to organic dairy 
production. When I wrote the Organic Foods Production Act for the 1990 
Farm Bill, organic dairy herds in the tens of thousands of animals did 
not exist. They now do, making equal enforcement even more important. 
In 2015, USDA proposed a rule governing the manner in which dairy 
animals are transitioned to organic, in order to control a loophole 
that was being abused. However, in 2018, USDA removed that rule from 
the Unified Regulatory Agenda.
    The proposed rule on transition of organic dairy animals appears to 
have broad support among the organic community, except from those who 
continue to benefit from this loophole. Why has USDA not issued a final 
rule on ``Origin of Livestock'' and by what date will you commit to 
doing so?
    Answer. USDA plans to reopen the comment period for the Origin of 
Livestock proposed Rule. The comment period will be for 60 days. All 
comments from 2015 and 2019 will be considered as the department 
prepares a final rule, expected in Spring 2020.
    Question. Since the 2015 proposed rule and the original comment 
period, the organic dairy industry has seen significant changes. AMS 
estimated the U.S. organic dairy industry had about 1,850 organic farms 
milking about 200,000 cows in 2015. There are now more than 2,500 
organic dairy farms milking 267,500 cows, or a 38 percent and 34 
percent increase, respectively according to USDA data. USDA has 
concerns about proceeding with a final rule without an opportunity for 
everyone impacted to provide public comment. Anyone interested may 
submit new comments or updates to comments made in the first comment 
period.
    What other actions have you taken to improve enforcement in the 
organic dairy sector and bring possible violators into compliance?
    Answer. The National Organic Program (NOP) 2018 Dairy Compliance 
Project significantly increased the number of unannounced audits of 
organic dairies around the country. This enforcement project continued 
in 2019, with additional auditors and an increase in the number of 
unannounced audits. NOP utilizes a risk-based approach to allocating 
enforcement resources. The more complex the operation, the higher the 
likelihood it will be subject to increased surveillance. Federal 
auditors have found that most dairies currently meet organic 
requirements. The 2019 Dairy Compliance Project is still in progress.
    When supported by evidence, NOP has issued adverse actions to both 
certifiers and dairies. When non-compliances are found to be 
unintentional or minor, the goal is to bring the certifier or operation 
back into full compliance as quickly as possible. More serious matters, 
intentional violations or fraud may be escalated to other law 
enforcement agencies and may result in significant financial penalties 
and/or imprisonment. Generally, until all appeals are exhausted, or an 
entity voluntarily surrenders its certification, NOP is not legally 
able to comment on whether or not an investigation is underway.
    To date, three certifiers have received notices of non-compliance 
and one dairy has received an adverse action. NOP has also entered into 
a settlement agreement with the Texas Department of Agriculture related 
in part to dairy compliance issues. These numbers may increase as fall-
season audits and certifier investigation requests are completed this 
Fall. The NOP will continue to take direct action whenever supported by 
the evidence. Many certifiers also issue notices of noncompliance or 
take adverse actions against dairies based on their independent 
findings. In the public/private partner model, not all notices issued 
by certifiers and resolved by operations are reported to NOP unless 
there is need for further adverse action.
    Additional actions will be included in the NOP Monthly Enforcement 
Report to Congress.
    NOP has also developed new training available free to certifiers 
and operations to improve consistency in the interpretation of the 
organic regulations. A learning module specific to Dairy Compliance is 
expected to launch in October.
                             farm to school
    Question. Unfortunately, inadequate staffing at USDA is a problem 
that is impacting the effectiveness of multiple programs. For example, 
the USDA Office of Community Food Systems has recently had a number of 
staffing transitions--both in its national and regional offices--
impacting the ability of the office to administer the Farm to School 
Grant program. In order to address this problem within the Office of 
Community Food Systems, this Committee dedicated $500,000 additional 
dollars so you could hire people. Yet, citing staffing constraints, I 
understand USDA plans to only release a portion of the additional Farm 
to School funds in the next grant cycle. When Congress appropriates 
funds, we expect agencies to release them.
    What is being done to ensure the vacant positions at USDA are 
filled?
    What are your plans to ensure these available funds are spent in a 
timely fashion, in order to achieve the intended goals of the program?
    If the USDA lacks the capacity to administer these funds, will you 
block grant them to States with Farm to School Programs?
    I have a Farm to School reauthorization bill that I plan to 
reintroduce soon that would increase the maximum grant award. Would 
this change help you get grant funding deployed more efficiently?
    Answer. I am happy to report that a new director for the Office of 
Community Food Systems joined the Agency in August 2019. One of her top 
priorities is working to fill the remaining vacancies on the team, most 
of which are expected to be filled this fall.
    Since fiscal year 2013, USDA has awarded over $39.9 million through 
the Farm to School Grant Program, funding 560 projects across the 50 
States, District of Columbia, Virgin Islands, Guam and Puerto Rico, 
reaching almost 18.5 million students in 39,000 schools. The additional 
Farm to School Grant funding provided by Congress in 2018 and 2019 
essentially doubled the size of the annual program. Given the timing of 
appropriations, we were able to incorporate the additional funding 
beginning with the fiscal year 2019 grant cycle. In July 2019, USDA 
awarded $9.4 million in grant funds to 126 schools, school districts, 
state and local agencies, non-profit organizations, Indian tribal 
organizations, and agricultural producers. We will soon request 
applications for fiscal year 2020 grants and anticipate awarding 
approximately $10 million.
    The President's fiscal year 2020 Budget also includes a proposal to 
permanently change the maximum amount a Farm to School grant recipient 
may receive from $100,000 to $500,000. We believe that raising the 
grant cap would allow States to better integrate Farm to School and 
enable local grantees to conduct higher impact work that is more likely 
to last beyond the end of the grant term. Raising the cap would also 
allow USDA to streamline grant administration and provide better 
customer service to each grantee.
                               hemp seed
    Question. As you know, many farmers are eager to add hemp to their 
crop rotations now that the 2018 Farm Bill has legalized its 
cultivation and production. I understand there are many challenges for 
USDA to establish rules and guidelines for a new crop. In the meantime, 
producers have been instructed to operate under the pilot framework 
established in the 2014 Farm Bill. Many producers, however, are unable 
to import seed from Canada as they have done in previous years because, 
based on the 2018 Farm Bill, the DEA has ceased issuing import permits 
for the 2019 growing season.
    In the short-term, will you commit to working across agencies to 
ensure producers are able to import the hemp seed they need for the 
2019 growing season?
    Answer. USDA is working across agencies to clarify the requirements 
for producers to import hemp seed. USDA will issue a statement to 
clarify the requirements and the information will be posted on the USDA 
website.
    The passage of the Agriculture Improvement Act of 2018 (2018 Farm 
Bill, Section 10113) removed hemp and hemp seeds from the Drug 
Enforcement Administration's (DEA) schedule of Controlled Substances.
    USDA regulates the importation of all seeds for planting to ensure 
safe agricultural trade. Under this authority, USDA provided an 
alternative way for the safe importation of hemp seeds into the U.S.
    Hemp seeds can be imported into the U.S. from Canada if accompanied 
by either:

  --a phytosanitary certification from Canada's national plant 
        protection organization to verify the origin of the seed and 
        confirm that no plant pests are detected; or

  --a Federal Seed Analysis Certificate (SAC, PPQ Form 925) for hemp 
        seeds grown in Canada.

    Hemp seeds may be imported into the U.S. from countries other than 
Canada if accompanied by a phytosanitary certificate from the exporting 
country's national plant protection organization to verify the origin 
of the seed and confirm that no plant pests are detected.
    Hemp seed shipments may be inspected upon arrival at the first port 
of entry by Customs and Border Protection (CBP) to ensure USDA 
regulations are met, including certification and freedom from plant 
pests.

                          SUBCOMMITTEE RECESS

    Secretary Perdue. Thank you, Mr. Chairman. I really 
appreciate the partnership that we enjoy, and I look forward to 
answering your questions and other questions and doing what you 
have instructed us to do in the Farm Bill. Thank you.
    Senator Hoeven. Thank you. We are adjourned.
    [Whereupon, at 11:25 a.m., Thursday, April 11, the 
subcommittee was recessed, to recessed, to reconvene subject to 
the call of the Chair.]
</pre></body></html>
